<html>
<title> - ENDING MODERN SLAVERY: BUILDING ON SUCCESS</title>
<body><pre>[Senate Hearing 115-747]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-747

                         ENDING MODERN SLAVERY: 
                          BUILDING ON SUCCESS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION
                             
                              __________

                          FEBRUARY 15, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                  COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                         C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     3
McCain, Hon. John, U.S. Senator From Arizona.....................     5
    Prepared statement...........................................     5
Kutcher, Ashton, Co-Founder, Thorn: Digital Defenders of 
  Children, Los Angeles, California..............................     7
    Prepared statement...........................................    11
Massimino, Elisa, President and Chief Executive Officer, Human 
  Rights First, Washington, DC...................................    14
    Prepared statement...........................................    17

              Additional Material Submitted for the Record

Responses of Elisa Massimino to Questions Submitted By Senator 
  Edward J. Markey...............................................    40
Statement of Principles on America's Commitment to Refugees......    43
Human Rights First...............................................    45


                             (iii)        

 
               ENDING MODERN SLAVERY: BUILDING ON SUCCESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Johnson, 
Flake, Gardner, Young, Cardin, Menendez, Coons, Murphy, Kaine, 
and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Senate Foreign Relations Committee will 
come to order. I am going to re-hit the gavel since people are 
tied up in the back for a variety of reasons. I want to call 
the meeting to order.
    I want to thank everybody for coming today. And to those 
who are here and who have traveled extensively to be here, I 
want to apologize on the front end for what is happening today. 
We have two votes at 10:30, which means that people will be 
streaming in and out of the meeting. And secondly, 
unfortunately, I understand there is a Democratic Caucus 
meeting that was called without talking to some of the 
chairmen. So in any event, that does not take away from the 
importance of this. I just hope that people will bear with us.
    We are at a historic turning point in the global fight to 
end modern slavery today, thanks to the incredible efforts of 
so many committed individuals, two of whom are with us today. 
Several are in the audience and certainly many up here at the 
dais. Faith-based groups, aid organizations throughout the 
U.S., and just people around the world have come together 
around this issue that we are highlighting today.
    This is the third year that we have held a hearing to 
highlight Shine a Light on Slavery Day, and the END IT movement 
has been building for about 10 years now. People around the 
world are very, very familiar now with this scourge on mankind. 
Across the country, people have made personal statements about 
the need to end modern slavery by wearing a red X like so many 
of us are doing today. And this year on February 23rd, during a 
Senate recess, this day will take place.
    In marking END IT Day, we highlight the horrific nature of 
modern slavery. We also highlight progress that is being made 
as the U.S. prepares to embark on an unprecedented global 
effort to end the scourge on humanity. And we certainly have 
some pioneers today who have been very instrumental in laying 
the foundation for that.
    Starting with the Trafficking Victims Protection Act, there 
has been a growing awareness and increasingly effective anti-
human trafficking work in the United States. This is important 
because as we begin to implement the authorization of the End 
Modern Slavery Initiative to measurably and sustainably ramp up 
all of our efforts worldwide, we can build on what has 
occurred.
    I want to take this moment to thank people here on the 
committee that unanimously passed out several years ago this 
bill and then continued to work to make sure, after about a 2-
year process, we actually passed the authorization. I think 
people understand appropriations are already in place. And now 
the real work begins, again standing on the shoulders of our 
witnesses here today and so many others.
    Along the way, we have seen efforts to make a difference, 
as I just mentioned. And our first witness today is Mr. Ashton 
Kutcher. He is the Co-Founder of Thorn, an organization that 
works with law enforcement to rescue trafficking victims by 
leveraging the very technology used to abuse and exploit them. 
We welcome him today. He, by the way, flew all night. He is 
working right now on a film. And so he caught a red-eye in 
after having dinner with this wife. A very smart man on 
Valentine's Day.
    [Laughter.]
    The Chairman. And he is leaving immediately after this. But 
I will tell you if you knew of what he and his organization 
have done, it is inspirational, and the metrics that they are 
able to help us with, the way that they are able to interdict 
in advance now what is happening is phenomenal and a true 
testament to entrepreneurialism and people taking a risk, in 
this case towards a social good.
    I had a few moments with him. I am even more thankful for 
him and his commitment to this. He became interested just by 
seeing that it was occurring and felt that he could do 
something about it.
    We also welcome our second witness, Ms. Elisa Massimino, 
President and Chief Executive Officer of Human Rights First, 
which is engaged in the fight against modern slavery. Thank you 
so much for what you have been doing and your testimony today.
    We are also happy to have with us today the founders of 
Passion Movement and the Passion Church, Louie and Shelley 
Giglio. I will have to say that they are the people that 
brought awareness to me. They are the people that have 
instilled the awareness in young people all across our country. 
They want to be a part of ending this. I thank them for their 
personal inspiration and the inspiration they are to so many 
people around the world every day.
    We also have Jenny Brown, the Campaign Director of the END 
IT movement, who obviously for 10 years has been making people 
aware. In many ways, this awareness is what has led us to 
today.
    We would also like to welcome Mr. Tim Estes, just 
serendipitously. This has nothing to do with our involvement. 
He is CEO of Digital Reasoning, which is based in Tennessee, 
and they are actually using intelligence to interdict and help 
with the tools that Thorn is putting in place.
    I want to also thank Ernie Allen for being here as well. 
Ernie founded the National Center for Missing and Exploited 
Children, one of our greatest leaders on this issue. People in 
this movement know him well.
    I also want to welcome former U.S. Representative Susan 
Molinari from Google who has been involved in this even before 
being involved with Google.
    So with that, thank you all for being here. It is a great 
day for us. A lot of work ahead.
    I would like to introduce our outstanding ranking member, 
Ben Cardin, and my friend.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you for making 
this one of the first hearings for the Senate Foreign Relations 
Committee in this Congress. It speaks to the priority that we 
believe that we must pay to modern day slavery trafficking. And 
we are proud of the progress that we have made in regards to 
dealing with this issue. It has been thanks to U.S. leadership, 
many of the people in this room, Susan Molinari. It is nice to 
see you again. We served together in the House of 
Representatives.
    It is always a pleasure to have Senator McCain on this 
committee. He served here for a while. I was a little 
suspicious when I saw him in the facilities. I thought he was 
coming over to take our office space, as well as our 
jurisdiction, for the Armed Services Committee.
    [Laughter.]
    Senator Cardin. That had me a little bit concerned.
    Senator McCain. I came to counsel you.
    [Laughter.]
    Senator Cardin. Your counsel is always welcome.
    Senator McCain is one of our great international champions 
on human rights. He is always very kind in the comments he 
makes about many of us. But we all have been mentored by 
Senator McCain on his passion to stand up for what is right and 
to do that regardless of the political consequences. When you 
stand up for human rights, you are standing up for what makes 
America the great nation it is. So, Senator McCain, it is great 
to have you here and thank you for your incredible leadership.
    Mr. Chairman, we have been talking about trafficking for a 
long time, and quite frankly, it was the U.S. leadership--it 
was the congressional leadership that made this issue the 
priority of our Nation and has made progress globally on 
trafficking, whether it is trafficking for sex or for labor 
issues, so many areas in which we have seen people abused 
around the world. I want to thank you for your leadership. It 
is tough to get anything done in this body, but through your 
persistent leadership, we have been able to leverage a very 
small amount of federal funds with private sector dollars that 
will make a difference globally on our fight against 
trafficking. You stuck with it. You got it done, and thank you 
for doing that.
    I want to thank Senator Menendez for his leadership on this 
issue. He has been one of the great champions on trafficking 
and standing up for the integrity of the Trafficking in Persons 
report which in the last administration, a Democratic 
administration, there was bipartisan criticism for the manner 
in which the Obama administration, we believed, brought in 
factors that should not have been brought into the rankings on 
the Trafficking in Persons report.
    I am proud of the work that has been done by the Helsinki 
Commission. I at one time had the opportunity to chair the 
Helsinki Commission. It was the Helsinki Commission that raised 
these issues in the international forum. Chris Smith now is our 
special representative to the OSCE Parliamentary Assembly. He 
has made a career priority of dealing with trafficking.
    Mr. Chairman, as you can see, there have been members on 
both sides of the aisle that recognize that this indeed is 
modern day slavery, and we have a responsibility to root this 
out wherever we find it. And it cannot be compromised for other 
areas. This is something that in and of itself must be our 
highest priority.
    So we can celebrate the success that we have had, but we 
know there are too many people at risk. I visited victim 
centers and have seen the victims of trafficking. I have seen 
the victims of trafficking in Europe. I have seen the victims 
of trafficking in Asia. I have seen the victims of trafficking 
in the United States. And it is heartbreaking. And we know that 
they are victims and we need to recognize them as victims.
    I want to make just one other comment if I might, and that 
is, there are many reasons I was concerned about the 
President's executive order on immigration and refugees. But 
one of the reasons is the impact it has on victims of 
trafficking. I am not clear whether those who had T-visas 
would, in fact, still--who are victims of trafficking could 
have come into this country under that ban. I know that many of 
the refugees from Syria are potential victims or are victims of 
trafficking that our refugee program has a major impact on. We 
know that the Rohingya population of Burma were subject to 
trafficking. Many were allowed to come to the United States 
that were put on hold as a result of the President's executive 
order.
    So I just urge us that as we look at our priorities for 
protecting those who are victims, that we recognize that we in 
our zeal to protect our Nation on things like this executive 
order, has an impact on protecting people from the scourge of 
trafficking and modern day slavery. And I would just urge us to 
make sure that when we say this is going to be our priority 
that we are going to protect these victims, that we look for 
every possible way in order to be able to accomplish these 
goals.
    As the chairman said originally, I apologize that 
Democratic members are going to have some conflicts and there 
are some conflicts on floor votes. But I must tell you this is 
a very, very important hearing and one we thank our witnesses 
and we thank the interest that we have from the private sector 
to work with us to find ways that we can be more effective in 
stopping modern day slavery.
    The Chairman. Thank you so much.
    And with that, we will turn to my friend and, as has been 
mentioned, someone who has been fighting for the rights of 
people who do not have them all around the world, one of the 
crankiest Members that we have here in the United States 
Senate.
    [Laughter.]
    The Chairman. But we are glad that he has come to our 
hearing today. And I want to thank you personally for your and 
Cindy's leadership on this issue.
    I want to thank you also for allowing the Modern Slavery 
Initiative to be carried on the NDAA last year. Thank you for 
hanging with us but showing the leadership you have, I know you 
are going to make a few comments. We appreciate that and we 
introduce you now.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Mr. Chairman. I will now 
translate the chairman's remarks into English.
    [Laughter.]
    Senator McCain. In the interest of time, Mr. Chairman, I 
would like my statement to be made part of the record and just 
say that the reason why I am here is to thank you, thank 
Senator Cardin, thank Senator Menendez especially, and all 
members of the committee for this bipartisan effort. If it had 
not been for yours and Senator Cardin's tenacity and dedication 
to this issue, it would not have passed into law as part of the 
National Defense Authorization Act. So I want to thank you and 
I want to thank all members of this committee for their effort 
and their highlighting this terrible, terrible issue that 
unfortunately, thanks to a lot of things, including social 
networking, seems to be growing rather than lessening 
throughout the world.
    I also want to thank Elisa and Ashton. Ashton, you were 
better looking in the movies.
    [Laughter.]
    Mr. Kutcher. My wife says that too.
    [Laughter.]
    Senator McCain. I want to thank you very much. On a 
personal note, I am proud of my home state of Arizona for being 
a leader on the issue. I applaud the work of my wife Cindy who 
for years has dedicated her time and effort on this. But I want 
to thank Thorn especially for their efforts.
    And just finally, Mr. Chairman, this issue is so terrible 
and so heart-wrenching and so compelling that a lot of times 
some of us would rather talk about more pleasant things. So I 
thank you for everything that you and members of this 
committee, but especially you and Ben, have done in furthering 
this effort. Some day it will pay off. And we will hear from 
our witnesses of the compelling stories that are so deeply 
moving, and I cannot think, frankly, of a higher priority.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]

               The Prepared Statement of Hon. John McCain

    Thank you, Chairman Corker and Ranking Member Cardin for holding 
today's hearing, and, more importantly, for your commitment to ending 
modern day slavery through your work on this committee.
    Human traffickers target the most vulnerable and at-risk 
individuals in our society and their crimes undermine the most basic of 
human rights. And the sad reality is that no matter where you live, the 
chances are it's happening nearby. More than 20 million people have 
been trafficked and trapped in horrific situations in over 165 
countries across the world, including the United States. If we are to 
finally eradicate modern slavery once and for all, it will require 
significant additional resources and sustained cooperation within the 
international community.
    Marshalling both public and private resources, the End Modern 
Slavery Initiative Act that passed as part of last year's National 
Defense Authorization Act will be critical in stopping such inhumane 
acts by giving support to victims, creating strategies to prevent 
slavery, and enforcing laws to punish perpetrators.
    This Initiative is an important step forward, and I am encouraged 
to see United States leadership on this issue, but human trafficking 
remains a widespread global phenomenon and we cannot address it on our 
own. We find susceptibility to trafficking wherever there is poverty, 
unemployment, and lack of opportunity, where rule of law is weak, where 
corruption is rampant, and where citizens live in fear without the 
protection of government. This is why we must do more to strengthen 
rule of law and support the work of our foreign partners, not only 
through anti-trafficking measures but also through vital democracy and 
governance aid. And it is why we need the support and commitment of our 
partners in return.
    Ultimately, when foreign countries see a serious and sustained 
commitment from the United States it often compels them to consider and 
make real policy changes. We need to provide a strong incentive for 
governments at every level to do all they can to prevent and prosecute 
trafficking, identify and support victims, and shield at-risk 
populations. This Initiative gives us the tools necessary to support 
the efforts of foreign governments committed to addressing human 
trafficking and allows for innovative partnerships where there is an 
active civil society to engage.
    On a personal note, I am proud of my home state of Arizona for 
being a leader on this important issue. I also applaud the work of my 
wife, Cindy, who, for years, has dedicated her time and energy to the 
cause of ending human trafficking both in Arizona and around the world. 
And, I am encouraged by the work of organizations like Thorn, who we 
will be hearing from today, who are harnessing technological innovation 
to assist law enforcement in restoring freedom to victims of this 
crime.
    As a country, we have had an extensive history of responding with 
necessary action to prevent slavery and ensure that fundamental 
freedoms are afforded to all people. But the fight against modern 
slavery is not over, and we must do more now. I am encouraged to see 
the Senate Foreign Relations Committee discussing ways to successfully 
implement this remarkable initiative and explore new opportunities to 
restore safety and give support to citizens across the world that are 
in dire need of protection and security.

    The Chairman. Thank you so much for coming. We appreciate 
it. Thank you.
    With that and setting the stage for the fact that we have 
27 million people around the world today that, as we sit here 
in this hearing, are living in slavery, 24 percent of those are 
in sexual servitude. 76 percent are living in cages at night, 
working in fishing, working in brick kilns, working in rug 
manufacturing. We have two of the best witnesses we could 
possibly have and people who have committed their lives and 
resources to this.
    Our first witness is Mr. Ashton Kutcher, Co-Founder of the 
Thorn: Digital Defenders of Children. Ashton, I just want to 
say again your story--for those people who are involved in 
venture capital and entrepreneurialism, it would be uplifting 
to see what you have done solely to help other people. I look 
forward to your testimony.
    Our second witness today is Elisa Massimino, President and 
Chief Executive Officer of Human Rights First. We thank you 
again for being here.
    If you would give your testimony in the order introduced, 
any written documents you have, without objection, will be 
entered into the record. Again, thank you so much for being 
here.

    STATEMENT OF ASHTON KUTCHER, CO-FOUNDER, THORN: DIGITAL 
         DEFENDERS OF CHILDREN, LOS ANGELES, CALIFORNIA

    Mr. Kutcher. Thank you. It is an honor to be here. As a 
young man raised and brought up in the public school system, I 
pledged my allegiance to that flag every single day. And the 
honor--maybe one of the greatest honors of my life today--is to 
be here and leverage the work that I have done as testimony 
that may in some way benefit this Nation that I love.
    I would like to start by saying thank you to Chairman 
Corker for your leadership in this endeavor, and to Senator 
Cardin, your leadership has been extraordinary. And I would 
like to also say thank you to the rest of the committee that 
has supported this effort. This is a bipartisan effort, and in 
a country that is riddled with bipartisan separation on so many 
things, slavery seems to come up as one of these issues that we 
can all agree upon, and I applaud you for your agreement. And I 
believe in you and your leadership and your ability to take us 
out of it.
    I am here today to defend the right to pursue happiness. It 
is a simple notion: the right to pursue happiness. It is 
bestowed upon all of us by our Constitution. Every citizen of 
this country has the right to pursue it. And I believe that it 
is incumbent upon us as citizens of this Nation, as Americans 
to bestow that right upon others, upon each other, and upon the 
rest of the world.
    But the right to pursue happiness for so many is stripped 
away. It is raped. It is abused. It is taken by force, fraud, 
or coercion. It is sold for the momentary happiness of another.
    This is about the time when I start talking about politics, 
and the Internet trolls tell me to stick to my day job. So I 
would like to talk about my day job.
    My day job is as the Chairman and the Co-Founder of Thorn. 
We build software to fight human trafficking and the sexual 
exploitation of children. That is our core mission. My other 
day job is that of the father of two, a 2-month old and a 2-
year-old. And as part of that job that I take very seriously, I 
believe that it is my effort to defend their right to pursue 
happiness and to ensure a society and government that defends 
it as well.
    As part of my anti-trafficking work, I have met victims in 
Russia. I have met victims in India. I have met victims that 
have been trafficked from Mexico, victims in New York, in New 
Jersey, and all across our country.
    I have been on FBI raids where I have seen things that no 
person should ever see. I have seen video content of a child 
that is the same age as mine being raped by an American man 
that was a sex tourist in Cambodia. And this child was so 
conditioned by her environment that she thought she was 
engaging in play.
    I have been on the other end of a phone call from my team 
asking for my help because we had received a call from the 
Department of Homeland Security telling us that a 7-year-old 
girl was being sexually abused and that content was being 
spread around the Dark Web. And she had been being abused and 
they had watched her for 3 years and they could not find the 
perpetrator, asking us for help. We were the last line of 
defense. An actor and his foundation were the potential last 
line of defense. That is my day job and I am sticking to it.
    I would like to tell you a story about a 15-year-old girl 
in Oakland. We will call her Amy. Amy met a man online, started 
talking to him. A short while later, they met in person. Within 
hours, Amy was abused, raped, and forced into trafficking. She 
was sold for sex. This is not an isolated incident. There is 
not much that is unusual about it. The only unusual thing is 
that Amy was found and returned to her family within 3 days 
using the software that we created, a tool called Spotlight.
    And in an effort to protect its capacity over time, I will 
not give much detail about what it does, but it is a tool that 
can be used by law enforcement to prioritize their caseload. It 
is a neural net. It gets smarter over time. It gets better and 
it gets more efficient as people use it. And it is working.
    In 6 months, with 25 percent of our users reporting, we 
have identified over 6,000 trafficking victims, 2,000 of which 
are minors. This tool is in the hands of 4,000 law enforcement 
officials and 900 agencies. And we are reducing the 
investigation time by 60 percent. This tool is effective. It is 
efficient. It is nimble. It is better. It is smarter.
    Now, there is often a misconception about technology that 
in some way it is the generator of some evil, that it is 
creating job displacement, and that it enables violence and 
malicious acts. But as an entrepreneur and as a venture 
capitalist in the technology field, I see technology as simply 
a tool, a tool without will. The will is the user of that 
technology, and I think it is an important distinction. An 
airplane is a tool. It is a piece of technology. And under the 
right hands, it is used for mass global transit, and under the 
wrong hands, it can be flown into buildings. Technology can be 
used to enable slavery, but it can also be used to disable 
slavery. And that is what we are doing.
    I alluded to a phone call that we got from the Department 
of Homeland Security about this girl that was being trafficked 
on the Dark Web. Now, it is interesting to note that the Dark 
Web was created in the mid-1990s. It was a tool that was 
created by the Naval Research Lab called TOR, a tool with 
absolute purpose and positive intention for sharing 
intelligence communications anonymously. It has also been used 
to help people who are being disenfranchised by their 
government within political dissent in oppressive regimes. But 
on the other side, it is used for trafficking, for drug 
trafficking, for weapons trafficking, and for human 
trafficking. And it is also the warehouse for some of the most 
offensive child abuse images in the world.
    Now, when the Department of Homeland Security called us and 
asked for our help and asked if we had a tool, I had to say no. 
And it devastated me. It haunted me because for the next 3 
months I had to go to sleep every night and think about that 
little girl that was still being abused and the fact that if I 
built the right thing, we could save her.
    So that is what we did. And now if I got that phone call--
and, Greg, wherever you are at--the answer would be yes. We 
have taken these investigation times of Dark Web material from 
3 years down to what we believe can be 3 weeks. The tool is 
called Solace. Once again, I will not go into too much detail 
about the tool, but it is being used by 40 agencies across the 
world today in beta, and we believe that it is going to yield 
extraordinary results. And just like Spotlight, it gets smarter 
and more efficient and more cost-effective over time.
    So where do we go from here? What do we need? Obviously, we 
need money. We need financing in order to build these tools. 
Technology is expensive to build, but the beauty of technology 
is once you build the warehouse, it gets more efficient and 
more cost-effective over time. I might be able to present to 
you a government initiative where next year I come back and ask 
for less. And to me, it seems extraordinary.
    The technology we are building is efficient. It works. It 
is nimble because traffickers change their modus operandi, and 
we can change ours as well just as efficiently, if not more 
efficiently, as they can. It is enduring and it only gets 
smarter with time.
    We also are collecting data. We have KPIs. We actually 
understand that if we are delivering value, we increase our 
efforts in that area. If we are not delivering value, we shut 
it down. And it is a quantifiable solution. One of my mentors 
told me do not go after this issue if you cannot come up with a 
quantifiable solution. We can quantify it and we can make the 
work that we are doing and the initiatives you put forth 
accountable.
    My second recommendation is to continue to foster these 
private-public partnerships. Spotlight was only enabled by the 
McCain Institution, and the full support of Cindy McCain and a 
man that I find to be not only a war hero but a hero to this 
issue, John McCain.
    It was not just created by them. There was extraordinary 
support from the private sector. The company, Digital Reasoning 
out of Tennessee, stepped up to the plate. They offered us 
effort. They offered us engineers. They offered us support and 
pro bono work. We have had the support of companies that 
oftentimes war with each other from Google, to Microsoft, to 
AWS, to Facebook. And some of our other technology initiatives 
included many, many other private companies. It is vital to our 
success. These private-public partnerships are the key.
    The third thing I would like to highlight is the pipeline. 
You know, we sit at the intersection of discovery of these 
victims, but the pipeline in and the pipeline out are just as 
vital and just as important and addressing them are just as 
important.
    I would like to highlight one thing in particular, that 
being the foster care system. There are 500,000 kids in foster 
care today. I was astonished to find out that 70 percent of the 
inmates in the prisons across this country have touched the 
foster care system, and 80 percent of the people on death row 
were at some point in time exposed to the foster care system. 
50 percent of these kids will not graduate high school, and 95 
percent of them will not get a college degree.
    But the most staggering statistic that I found was that 
foster care children are four times more likely to be exposed 
to sexual abuse. That is a breeding ground for trafficking. I 
promise you that is a breeding ground for trafficking.
    But the reason I looked at foster care is that it is a 
microcosm. It is a sample set that we have pretty extraordinary 
data around to date, even though we cannot seem to fix it. It 
is a microcosm for what happens when displacement happens 
abroad as the unintended consequences of our actions or 
inactions in the rest of the world. When people are left out, 
when they are neglected, when they are not supported, and when 
they are not given the love that they need to grow, it becomes 
an incubator for trafficking. And this refugee crisis--if we 
want to be serious about ending slavery, we cannot ignore it 
and we cannot ignore our support for this issue in that space 
because otherwise we are going to deal with it for years to 
come.
    The outbound pipeline. There is just not enough beds. The 
bottom line is once someone is exposed to this level of abuse, 
it is a mental health issue. And there are not enough beds. 
There is not enough support. And we have to have the resources 
on the other side, otherwise the recidivism rates are through 
the roof. It is astonishing because when Maslow's hierarchy of 
needs are not being met, people will resort to survival, and 
this is their means of survival and the only source of love 
that they have in their life, that is what they go for. So we 
have to address the pipeline out, and we have to create support 
systems on the other end. It is not an entitlement. It is a 
demand to end slavery.
    My fourth and final recommendation is the bifurcation of 
sex trafficking and labor trafficking. They are both 
aberrations. They are both awful. They are both slavery, and 
they are both punitive in fact. But the solution sets are 
highly differentiated. When you look at sex trafficking, a 
victim is most often present at the incident of commerce. And 
this provides an opportunity for drastic intervention, whereas 
in labor trafficking, the victims are being hidden behind the 
manufacturers and the merchandisers. And it requires an 
entirely different set of legislation and proactivity and 
enforcement in order to shut it down.
    You know, there is a lot of rhetoric that is going on in 
the world right now about job creation in the United States. 
Well, if we want to create jobs in the United States, I would 
ask you to consider eliminating slavery from the pipelines of 
corporations because a lot of that slavery is happening abroad. 
And if we ask those corporations under extreme pressure that if 
you do not change it, you are going to be penalized, and if you 
do not clean up that pipeline, it is going to mean trouble, 
they are forced with two decisions. They can either clean up 
the pipeline abroad or they can move the jobs to the United 
States of America where they can be regulated and supported. 
Bringing jobs to America can be the consequence of doing the 
right thing, or it can be the consequence of doing the wrong 
thing. But that choice is up to you.
    Now, it is not lost on me that all of this disruption in 
our marketplace is going to have economic backlash. That is not 
lost on me at all. But I ask you do you believe that Abraham 
Lincoln had to consider the economic backlash of shutting down 
the cotton fields in the South when he shut down slavery 
because I am sure that weighed on his mind.
    You know, happiness can be given to no man. It must be 
earned. It must be earned through generosity and through 
purpose. But the right to pursue it--the right to pursue it is 
every man's right. And I beg of you that if you give people the 
right to pursue it, what you may find in return is happiness 
for yourself.
    Thank you.
    [The prepared statement of Mr. Kutcher follows:]

                The Prepared Statement of Ashton Kutcher

    Mr. Chairman and distinguished members of the Committee, I am 
honored to appear before you today to express my conviction that we can 
end modern slavery during our lifetimes.
    I want to express my particular gratitude to Chairman Corker for 
his vision, courage and tenacity, Senator Cardin, and the members of 
this Committee, for the work you did in a bipartisan way that made the 
End Modern Slavery Initiative a reality. It will change the world.
    As this Committee has reported, at least 27 million people, 
including children, suffer as a result of forced labor and sexual 
exploitation. The leading experts tell us that this is a problem in 
more than 165 countries. But it is not just a problem somewhere else. 
It is also a problem in this country.
    While it's important to know the numbers and statistics, it can 
make this problem seem distant. However, this is an issue that touches 
real people's lives. As a father of two young children, it is the 
stories of survivors and their resilience that have stayed with me and 
motivated me to do this work.
    Let me give an example of a survivor I was thinking about today as 
I came to Capitol Hill for this hearing. In 2015, we learned of Amy 
(not her real name), a 15-year old girl in Oakland who met her 
trafficker online and struck up a friendship. One day after school, she 
agreed to meet him in person and runaway. As soon as they were alone 
together, the man revealed he was a pimp and that Amy had to now sell 
herself for sex, otherwise he would beat her. He sexually assaulted Amy 
and forced her to start posting her own ads on online escort sites.
    Several days later, law enforcement officials were able to locate 
Amy and set up a ``date.'' Once in the room, they revealed they were 
law enforcement and there to help her. She said she wanted to go home 
and she helped the officers arrest her pimp. He is now facing over 40 
years in prison. Amy is back home with her family and receiving 
services.
    Sadly, Amy's story is not an isolated instance. It occurs every 
day, not just in this country, but all around the world. These are 
horrible situations and every situation is different.
    One thing that is unique about Amy's story is the short amount of 
time it took officers to find her. While our goal is that no one falls 
prey to trafficking ever, if and when they do, we must have a rapid 
response. When children are being trafficked and exploited, time is of 
the essence. There is not a moment to waste. And this is where 
technology can help.
    In the past, a typical trafficking case could take months, if not 
years, to identify and locate a minor victim due to the volume of 
escort ads posted daily in the United States. Our data points to over 
150,000 escort ads posted every day that are constantly being taken up 
and down on various sites. This reality, in combination with the fact 
that traffickers move victims from city to city, makes it extremely 
difficult to find and identify any individual.
    Our solution to this challenge is Spotlight. Spotlight is a web-
based application we built with our partners (Digital Reasoning, the 
McCain Institute, Google, and others) to improve trafficking 
investigations and increase the number of victims identified and 
connected with help resources.
    While I can't disclose exactly how it works since it is utilized by 
law enforcement across the country, I can say it draws from publicly 
available data and using natural language processing and machine 
learning to help surface likely minors being sold online. This 
technology has existed for years, and yet now we are putting it to work 
for some of our most vulnerable children.
    And is it working? Yes. We know this because more than 4,000 
officers from over 900 agencies across this country are using it and 
getting real results. In the last twelve months, it's helped identify 
over 6,000 trafficking victims in the U.S., 2,000 of which were minors. 
It has also led to the identification of over 2,200 traffickers.
    Before Spotlight, if officers were lucky, they may have found Amy 
in a few months. With Spotlight, it took 3 days. This is where 
technology can be instrumental--in shrinking the time it takes to reach 
the victims in these situations.
    Amy's story shows us the power of using technology in the fight 
against trafficking:
    1. Technology Means Faster Identification. While invest in 
trafficking prevention is paramount, we also need the tools to identify 
victims when trafficking occurs. Amy is one person, but she is not 
alone. Technology allows for first responders to move faster and reach 
more victims in half the amount of time. Our users report that 
Spotlight has reduced investigative time by up to 60%. This means 
officers can spend more time away from a computer and out in the field 
trying to make contact with those who may want help.
    2. Technology is adaptable. One of the things we know about all 
types of trafficking, is how quickly the landscape changes. This is 
particularly true online, and can put law enforcement at a disadvantage 
to tech savvy perpetrators. One site goes down, another one pops up in 
its place.
    However, technology is nimble and can adjust to these kinds of 
changes in a matter of seconds, ensuring we don't miss a beat. We also 
run our nation wide survivor survey, where we ask survivors of 
trafficking to describe what role technology played in their 
exploitation to better understand where the points of intervention are 
and how we can improve our response. In this way, we are getting the 
full picture of how technology is being used to exploit these victims, 
so we can create effective tools to fight back.
    3. Technology is scalable and inexpensive to replicate globally. If 
you build a viable tool, you don't have to be constantly re-inventing 
the wheel, making it is relatively easy to adapt and scale globally. 
For us we've seen this both on the Spotlight, and with our work on the 
Dark Web. Spotlight is now being used in Canada, and we have great 
interest from the UK. Separately, our dark web tool (which I will 
discuss later) is being utilized by an international working group who 
focus on Child Sexual Abuse Material investigations in the Dark Web 
(over 40 users from 8 countries).
    Using technology to fight the sexual exploitation of children is 
what we aim to do at Thorn, a nonprofit organization I co-founded 
several years ago. We made a commitment to innovate, to develop new 
technology tools to better respond to and address these problems, and 
then to put those tools in the hands of those best positioned to use 
them.
    I refuse to live in a world where any person must remain in a 
heinous abuse situation simply because existing technology hasn't been 
utilized to find them.
    This model has taught us a lot about what we need to be effective 
but we still have a lot to learn. Spotlight is just one example of our 
commitment at Thorn to bring new, cutting-edge tools to the fight 
against modern slavery and human trafficking. Let me mention one more.
                                dark web
    In the mid-1990s, the United States Naval Research Laboratory 
created a new tool, which enabled political dissidents and journalists 
to use the internet anonymously, thus avoiding retaliation by 
repressive regimes. This was done for high-minded and noble reasons.
    Yet, as with so many other innovations, there have been unintended 
consequences. Political dissidents are not the only ones using the 
internet anonymizing tools we created. They are also being used by 
criminals and exploiters, including human traffickers, weapons 
traffickers, drug traffickers, child exploiters and many others.
    As a result today, the anonymous Dark Web has become the open 
market for the trading of the worst of the worst child sexual abuse 
content. And there is no way to ``shut it down.'' Now that the 
technology exists, it will also be out there.
    Therefore, the way you have to attack this problem, is by matching 
the level of technical sophistication with your response. Initially, 
the primary investigative techniques were either infiltration or 
waiting for offenders to make a mistake. At Thorn, we are changing this 
paradigm by enlisting the best and brightest minds in technology to 
help us get out in front of these perpetrators instead of always 
playing catch up.
    Working alongside some of the top minds in technology, as well as 
law enforcement, we
    have developed a Dark Web investigations tool that can aid 
investigators in identifying and rescuing victims in the Dark Web 
faster than ever before.
    Just in the first six months of testing our beta tool, it has 
helped identify 37 children from around the world who were victims of 
child sexual abuse and whose abuse material has been shared in 
communities on the Dark Web. A number of these children were under 5 
years old.
                            recommendations
    Our efforts to help solve the complex problems of human trafficking 
and child sexual exploitation have taught us some powerful lessons. I'd 
like to offer three recommendations:
    1. More public-private partnerships are needed (Investment in 
Technology). At Thorn, we are a concrete example of what working with 
the public and private sector looks like. We've benefited from the 
expertise of leading technology companies like Google, Facebook, 
Microsoft, and AWS. We've also had the privilege to work with law 
enforcement and other government agencies at the local, national, and 
international level that are on the frontlines and are eager to improve 
their technical tools. We need support from both industry and 
government to keep doing this work.
    Our tool Spotlight is a great example of a public/private 
partnership. Because of the McCain Institute's initial investment in 
Spotlight, we were able to partner with Digital Reasoning, (a 
technology company based in Tennessee), to build the tool and get it in 
the hands of officers across the country. Our grassroots work with law 
enforcement has helped us bring Spotlight to over 4,000 law enforcement 
agents in over 1,000 agencies in all 50 states.
    A detective in New Mexico wrote us, ``I cannot overstate the 
importance of Spotlight in these investigations. Due to caseloads, we 
would be unable to identify most of these victims by manually searching 
their information due to time constraints.''
    While this approach of private and nonprofit funding allowed us to 
build the tool, it is not sustainable over time. We need government to 
join us as investment partners and support the ongoing innovation 
needed to stay ahead of perpetrators as well as invest in the technical 
support for law enforcement agents that are working to protect our 
kids.
    The End Modern Slavery Initiative Act, championed by Chairman 
Corker and this Committee, shows how the US government can be a leader 
on this issue. Through this initiative, the US government can actively 
invite the best and brightest in the technology field to join us in 
this fight and open a dialogue towards identifying and implementing 
technical solutions around the world. And, by demonstrating your 
financial commitment, this Committee is showing the world that the 
United States is serious about ending slavery in our lifetime.
    2. We must address the ``pipeline'' and aftercare: We need to even 
better understand how children become vulnerable to this crime in the 
first place. For instance, if you want to think about preventing 
domestic sex trafficking in the U.S., you must examine the foster care 
system and the data around the correlation between foster care and 
trafficking. It is absolutely dismal. Many organizations, agencies, and 
reports have documented the intersection between involvement in the 
child welfare system and child sex trafficking; between 50 and 98 
percent of identified child victims of commercial sexual exploitation 
have previously been involved with the child welfare system. Therefore 
if we are to address trafficking in the U.S., we must look hard at the 
foster care system as a place of critical intervention.
    And while our tool helps identify victims who are being exploited, 
what happens to these survivors once they are out of that abusive 
situation? All too often trafficking survivors find no options for 
rescue and rehabilitation. We must change that. There are some 
remarkable non-profits and government programs that offer direct 
services to survivors in the U.S., and all of them operate on a 
shoestring budget. Robust aftercare services prevent re-victimization 
and can be a critical investment of the End Modern Slavery Initiative 
Act as you seek to measurably reduce the prevalence of slavery around 
the world.
    3. We must address demand, the buyers. Human trafficking and modern 
slavery are such large problems today for a basic reason. They are low-
risk and highly profitable. In the fight against sex trafficking, the 
perpetrators are often the unsuspected man next door. We have to create 
real deterrence and reduce demand by holding the customers accountable. 
And in regards to labor trafficking, we need more transparency in 
business supply chains and accountability for companies that are 
sourcing supplies and labor unethically. Members of this Committee have 
helped advance efforts to protect victims of labor trafficking by 
regulating foreign labor recruiters and introducing legislation to hold 
companies accountable. President Obama's Executive Order seeking to 
eliminate trafficking in federal contracts showed us that change is 
possible, but we have more work to do.
                               conclusion
    Thank you for holding this hearing on this issue. Too often it is 
ignored and it takes courage to confront an issue that represents the 
worst of humanity.
    However, in working together to ``End It'' we also see the best 
sides of humanity. Because this committee has worked in a bipartisan 
way, the End Modern Slavery Initiative Act has now been signed into law 
by President Obama. I congratulate you on putting the interests of 
vulnerable children and adults ahead of politics.
    Mr. Chairman, thank you for your leadership. And thank you for the 
opportunity to appear before you today and to add my voice and that of 
Thorn to your historic effort to end modern slavery and touch the lives 
of millions of children and adults around the world. We stand ready to 
assist.
    Thank you.

    The Chairman. Thank you so much. Thank you.
    Elisa?

  STATEMENT OF ELISA MASSIMINO, PRESIDENT AND CHIEF EXECUTIVE 
          OFFICER, HUMAN RIGHTS FIRST, WASHINGTON, DC

    Ms. Massimino. Thank you, Chairman.
    Wow. I am just digesting all of that incredible passion and 
intelligence and purpose from you and feeling regretful that I 
have to follow it.
    [Laughter.]
    Ms. Massimino. But thank you also, Ashton, for turning your 
talent, your profile, your smarts to this important issue.
    Thanks to this committee and particularly thank you to you, 
Mr. Chairman, for your outstanding leadership on this issue. We 
are so grateful for your efforts to promote a stronger American 
leadership in this fight.
    Slavery is a devastating assault on human dignity. 
Perpetrators prey on the most vulnerable among us, refugees, 
children, the poor. It is a pressing global problem that 
affects and implicates the United States. It involves 
multinational supply chains, criminal enterprises, and the very 
terrorists and extremists that our Nation has vowed to combat. 
It tests our country's willingness to uphold fundamental rights 
at home and to challenge other governments to do the same.
    Our country is both a source and destination country for 
trafficking victims. And traffickers earn an estimated $150 
billion annually in illicit profits, while NGOs like ours and 
governments worldwide spend only about $124 million each year 
to combat it. That is simply not a fair fight. Meanwhile, 
American workers are forced to compete against free labor as 
companies take advantage of the global failure to enforce anti-
slavery laws.
    Increasingly organized crime rings and international 
terrorist organizations traffic in human beings to accumulate 
wealth and power. And when refugees fleeing violence in Syria, 
Iraq, and other regions plagued by terrorism and political 
instability do not have pathways to safety, they become easy 
marks for extremists to exploit.
    Congress and the administration ought to deepen their 
commitment to combating slavery not only because of the moral 
and economic implications, but also because of the national 
security risks posed by corruption, terrorism, and organized 
crime.
    At Human Rights First, our mission is to foster American 
global leadership on human rights. We believe that standing up 
for the rights of all people is not only a moral obligation, 
but it is a vital national interest and that our country is 
strongest when our policies and actions match our ideals. For 
nearly 40 years, we have worked to ensure that the United 
States acts as a beacon on human rights in a world that sorely 
needs American leadership.
    American efforts to end modern slavery are critical not 
only to prevent human trafficking here at home, but also to 
ensure that our country sets an example for others. That is why 
we need to work harder to eliminate slave labor from the supply 
chains of American companies and to empower federal law 
enforcement agencies, which have deep expertise in prosecuting 
cross-border organized crime, to focus greater attention on 
ending impunity for traffickers and their enablers.
    Right now, slavery is a low-risk enterprise for the bad 
guys. According to the State Department's most recent 
Trafficking in Persons report, there were just over 6,600 
trafficking convictions globally in 2015, and only 297 of those 
were in the United States. Now, that might sound like a lot, 
but when you consider that there are nearly 21 million people 
enslaved around the world today, that is a pitifully small 
number. We have to do better.
    The United States has made important progress in the fight 
against modern slavery, and this committee has really been a 
key driver of that progress. The bipartisan cooperation and 
concern that has been demonstrated by this committee is a model 
for the future of our country.
    Today Human Rights First is releasing a new congressional 
blueprint for action to dismantle the business of modern 
slavery in which we detail additional measures that Congress 
should take. Modern slavery is a complex global crime, and we 
have to tackle it using a range of strategies. In my written 
testimony, I detail our recommendations, and they include using 
the funds authorized by the End Modern Slavery Act to combat 
trafficking globally and to attract new resources from other 
governments and private donors, bolstering the Trafficking 
Victims Protection Act to ensure that law enforcement and 
prosecutors have adequate resources to hold traffickers 
accountable, intensifying enforcement of the Tariff Act's ban 
on importation of goods made with slave labor, fully leveraging 
the power of the U.S. Government contracting to make sure we 
are not purchasing goods and services made with slave labor, 
and shielding the TIP report from political influence by 
passing the bill recently introduced by Senator Menendez and 
Senator Rubio.
    Each of those measures is critically important, but we also 
have to pay attention to prevention. Traffickers are ruthless 
and opportunistic. They are drawn like sharks to those in 
distress, and it is hard to imagine people in more distress 
today than refugees. In fact, with the possible exception of 
Vladimir Putin, nobody benefits more from the refugee crisis 
than those in the business of modern slavery. The truth is we 
simply cannot combat slavery without attending to those most 
vulnerable to it. And today, more than ever, that means helping 
refugees.
    As the State Department explained in last year's TIP 
report, refugees are, quote, prime targets for traffickers and 
refugee camps are ideal locations for them to operate. The 
majority of the world's refugees are women and children, and 
the U.N. Special Rapporteur on Trafficking reports that since 
2011, thousands of them--thousands--have disappeared, 
presumably abducted for purposes of trafficking-related 
exploitation.
    The U.N. Rapporteur also concluded that one of the primary 
causes of the rise in trafficking worldwide is increasingly 
restrictive and exclusionary immigration policies. According to 
the U.N. High Commissioner for Refugees, 10 percent of the 
world's refugee population is in urgent need of resettlement. 
Yet, last year only 1 percent were moved to places of safety.
    In light of this crisis, the recent executive order 
blocking the resettlement of Syrian refugees and reducing 
refugee admissions and halting the entire refugee resettlement 
program for the foreseeable future is particularly cruel. 
Turning our backs on the people most vulnerable to slavery, the 
very people this committee has worked so hard to help, not only 
breaks faith with our most cherished ideals, but it is a gift 
to those who profit from human misery. As a Nation that once 
pledged to stand firm for the non-negotiable demands of human 
dignity, I think it is unconscionable. It is not who we are. It 
is not what we stand for.
    Time and again, national security leaders from Republican 
and Democratic administrations have testified that protecting 
refugees does not put Americans at risk. On the contrary, 
accepting Syrian and other refugees actually makes us safer. By 
helping them, the U.S. safeguards the stability of our allies 
that are hosting the vast majority of refugees, counters the 
warped vision of extremists that we are somehow at war with 
Islam, and strengthens our moral credibility, credibility that 
can be leveraged on other issues.
    Thirty-two of our Nation's most prominent national security 
leaders, retired flag officers, former government officials, 
including the former Secretary of Homeland Security Michael 
Chertoff, former National Security Adviser Steve Hadley, and 
former Director of the National Counterterrorism Center said in 
this statement--and I quote--despite America's role as the 
global leader in resettling refugees, many voices call for 
closed doors rather than open arms. To give in to such impulses 
would represent a mistake of historic proportions.

    [The information referred to can be found at the end of the 
hearing.]

    The so-called extreme vetting that is sought by the 
administration is already happening. It takes place over many 
months. It involves multiple law enforcement and intelligence 
agencies, and the blanket ban that has been proposed would not 
block terrorists. Our Nation's national security officials 
already do that. But it would block people forced to flee 
because of persecution and violence inflicted by repressive 
regimes and terrorist groups. And it will block people that are 
vulnerable to the parasitic criminals and violent extremists 
who profit from the global slave trade.
    Mr. Chairman and members of the committee, I know how 
deeply you care about ending the scourge of modern slavery, and 
I urge you to allow your compassion for its victims to inform 
your position on refugees. Anyone who seeks to deprive 
traffickers of their ability to prey on vulnerable people 
cannot in good conscience slam the door on refugees. We are 
counting on you to fight any executive action that would 
sacrifice more innocent women and children to the global slave 
trade.
    In particular, I urge you to support Senator Feinstein's 
bill that would rescind the executive order. In the midst of 
the biggest refugee crisis since World War II, the world is 
really watching what we do. If we want our country to be a 
global leader in the fight against modern slavery, we cannot 
turn our backs on the very people most likely to become its 
victims.
    Thank you.
    [The prepared statement of Ms. Massimino follows:]

               The Prepared Statement of Elisa Massimino

           i. introduction: the problem of human trafficking
    Chairman Corker, Ranking Member Cardin, and Members of the 
Committee: thank you for the invitation to be here today to discuss 
strategies for ending modern slavery. The scope and gravity of this 
problem demands our attention. We are deeply grateful, Mr. Chairman, 
for your outstanding leadership in raising the profile of this often-
hidden crime and your persistence in ensuring that our country does all 
it can to end it.
    The United States abolished slavery with the ratification of the 
13th Amendment over 150 years ago. Yet the International Labor 
Organization reports there are more than 20 million people enslaved 
today--about double the number in bondage during the transatlantic 
slave trade. Slavery is a devastating assault on human dignity. 
Fundamentally, it is about exploitation of vulnerable people for 
profit.
    This is a pressing global problem that both affects--and 
implicates--the United States. It involves multi-national supply chains 
and global criminal enterprises. It tests our country's willingness to 
uphold fundamental rights at home and to challenge other governments to 
do the same.
    The United States is both a source and destination country for 
human trafficking victims. Traffickers earn an estimated $150 billion 
annually in illicit profits, while NGOs and governments worldwide spend 
only about $124 million each year to combat it. That's not a fair 
fight. Meanwhile, American workers are forced to compete against free 
labor as companies take advantage of the global failure to enforce 
anti-slavery laws.
    Increasingly, organized crime rings and international terror 
organizations traffic in human beings to accumulate wealth and power. 
Congress and the new administration must continue their commitment to 
addressing the problem of slavery, both for its moral and economic 
implications, and also because of the national security risks 
associated with corruption, terrorism, and organized crime.
    This committee has done important work in this regard, and I want 
to thank Senators Corker and Cardin for your continued leadership on 
this issue.
    As you said at this hearing last year, Senator Corker, the stark 
reality of modern slavery is unconscionable, and it demands that we 
make a commitment to end it for good.
    At Human Rights First, our mission is to foster American global 
leadership on human rights. We believe that standing up for the human 
rights of all people is not only a moral obligation; it is a vital 
national interest. Our country is strongest when our policies and 
actions match our ideals. For nearly 40 years, we have worked to ensure 
that the United States acts as a beacon on human rights in a world that 
sorely needs American leadership.
    American efforts to end modern slavery are critical, not only to 
eliminate human trafficking here at home, but to ensure that the United 
States sets an example for other nations. We need to make sure we are 
doing everything we can to eliminate slave labor from the supply chains 
of U.S. companies, and that our powerful federal law enforcement 
capabilities, which have deep experience and expertise in prosecuting 
cross-border organized crime, turn their attention to the crime of 
human trafficking.
    To that end, we have supported anti-trafficking legislation and 
increased funding for anti-trafficking programs, both at home and 
abroad. And we have spotlighted how traffickers and their enablers 
worldwide, including in the United States, too often operate with 
impunity.
    According to the State Department's most recent annual Trafficking 
in Persons report, in 2015 there were just over 6,600 convictions 
globally, and only 297 convictions for human trafficking here in the 
United States. That may seem like a lot, but when you consider that 
there are nearly 21 million people enslaved around the world today, it 
is pitifully few. We have to do better.
    These statistics also show that the people trafficked for labor 
have been especially neglected. An estimated 68% of trafficking victims 
worldwide are trafficked for labor, yet only 7% of convictions 
worldwide, and only 4% of human trafficking-related convictions in the 
United States, are labor trafficking cases.
    Boosting domestic prosecution of human trafficking is critical, 
both to eliminating the problem here in the United States and to 
setting an example for other countries on how it can be done.
Human Trafficking and Refugees
    Traffickers are opportunistic and ruthless, and they are drawn like 
a magnet to vulnerable people. Because refugees are separated from 
their economic and social support structures and have limited ways to 
provide for their families, they are particularly vulnerable to 
exploitation by traffickers. This is especially true for unaccompanied 
minors and women and girls.
    Those who fall victim to human trafficking are among the most 
vulnerable people in the world, such as the nearly 5 million refugees 
who have fled Syria. About three-quarters of these refugees are women 
and children. A third of them are under 12 years old. These people are 
in grave danger of falling prey to human traffickers. Human Rights 
First has been assisting refugees seeking asylum in the United States, 
and encouraging global adherence to the international refugee 
convention, since our founding in 1978. As you said recently, Mr. 
Chairman: ``[T]he United States is at its best when it leads. And that 
leadership is particularly important in a crisis.'' We could not agree 
more.
    The U.N. High Commissioner for Refugees has described the current 
situation as the ``biggest humanitarian and refugee crisis of our 
time.'' Host countries' infrastructures are buckling under the strain, 
forcing refugees to rely on smugglers and treacherous migrant routes 
and border crossings as they search for protection. Even if they 
finally land in a refugee camp, these people remain at high risk for 
being trafficked. The U.N. High Commissioner for Refugees has stated 
10% of the world's refugee population is in need of resettlement, yet 
less than 1% are resettled.
    As the U.S. State Department explained in its 2016 TIP report:
    Camps for refugees and internally displaced persons are prime 
targets for traffickers. The concentration of vulnerable, displaced 
people, combined with a lack of security, services, and oversight 
typically found in such camps, make them ideal locations for 
traffickers to operate. In long-standing camps, traffickers are able to 
build relationships with corrupt camp officials and establish 
trafficking rings. Human trafficking is frequently overlooked in crises 
and omitted from formulations of humanitarian and emergency response 
policies. Trafficking operations can flourish amidst international 
reconstruction efforts where there are few government institutions or 
rule of law. The international community and individual countries must 
recognize labor and sex trafficking as a common occurrence during 
conflict and include anti-trafficking strategies in humanitarian 
responses.
    We must recognize the close link between human trafficking and the 
refugee crisis. If we want to end modern slavery, we should be doing 
everything we can to reduce the vulnerability of the refugee 
population.
                   ii. successes and recommendations
    The United States has made some important progress in its attempts 
to combat human trafficking, and this committee has played a key role 
in making that happen. Today Human Rights First is releasing a new 
congressional blueprint for action to dismantle the business of modern 
slavery in which we detail additional measures that Congress should 
take.
A. End Modern Slavery Initiative Act
    Senator Corker introduced bipartisan legislation designed to bring 
much-needed resources to this global fight. The End Modern Slavery 
Initiative Act of 2015 was critically important legislation seeking to 
leverage foreign aid and galvanize support from the public and private 
sectors internationally to focus resources to fight slavery.
    Programs that receive funding under the act are required to 
contribute to the freeing and recovery of victims, prevent future 
enslavement, and enforce laws to punish perpetrators of modern slavery. 
They must develop clear and measurable goals and outcomes; and achieve 
fifty percent reduction of modern slavery in targeted populations. 
These are all extremely important measures.
    Now we need to ensure the funds authorized by the act and already 
appropriated will be used to leverage further resources from 
governments and private donors. Engaging other governments is key to 
addressing the cross-border aspect of slavery and ensuring that 
shutting down slavery in one place doesn't just force it over to 
somewhere else. Similarly, we have to engage the private sector to 
address slavery in supply chains. Additionally, this fund should 
bolster law enforcement in select geographic areas with a goal of 
reducing the incidence of slavery by at least fifty percent during the 
duration of the project. This concentrated investment in key geographic 
areas is crucial to identifying the most successful methods of 
increasing the risk to traffickers, which can then be scaled up and 
replicated in other countries.
B. Trafficking Victims Protection and Reauthorization Act
    Amendments to the Trafficking Victims Protection and 
Reauthorization Act (TVPRA) have also been critical to enabling 
prosecutors to bring traffickers and their enablers to justice. 
Although we still see only a small number of human trafficking 
prosecutions, both worldwide and in the United States, we have learned 
that targeting funding to encourage coordination among federal 
agencies, such as through Enhanced Collaborative Model Human 
Trafficking task forces, has been extremely helpful to the U.S. 
government's ability to detect and respond effectively to human 
trafficking. It is important for Congress to continue to support these 
prosecutions, through additional targeted funding for training of 
prosecutors, investigators, and service providers, and through 
legislation that provides designated prosecutors with the resources 
necessary to focus on prosecuting slavery.
    Domestic prosecutions of human trafficking send an important signal 
to other countries we are trying to enlist in this fight. Better 
coordination of domestic law enforcement also supports international 
prosecutions of global trafficking rings, which is a growing area of 
concern.
    Refugees, and particularly children, are especially vulnerable to 
these organized criminal syndicates. Last year, Interpol, along with 
the European Union's criminal intelligence agency, released a report 
documenting that at least 10,000 unaccompanied child refugees had 
disappeared after arriving in Europe. Many were feared to have fallen 
into the hands of organized criminals engaged in human trafficking. 
These international law enforcement agencies found that longstanding 
criminal gangs known to be involved in human trafficking were now 
engaging in migrant smuggling and were targeting refugees for human 
trafficking. U.S. law enforcement agencies must have the resources and 
training to coordinate with our allies and help combat this global 
scourge.
    The TVPRA has also provided important protections for unaccompanied 
children who arrive at the Southern border and are at risk of human 
trafficking. The 2008 TVPRA mandated that Customs and Border Protection 
(CBP) immediately transfer unaccompanied children from non-contiguous 
countries to the Department of Health and Human Services Office of 
Refugee Settlement custody, where appropriate care and screening can 
take place with child welfare professionals. The TVPRA also mandated 
that unaccompanied children from Mexico or Canada be screened for risk 
of trafficking or fear of persecution before they are removed or 
returned, and that any unaccompanied child found to be at risk be 
immediately transferred to the Department of Health and Human Services 
Office of Refugee Settlement custody. Congress should ensure that these 
provisions in Section 235 of the TVPRA are maintained. These 
protections guarantee that unaccompanied children speak to individuals 
trained to recognize the signs of trafficking and who have expertise in 
child welfare and development. If unaccompanied children who have been 
trafficked are to be protected, they must speak with the proper people 
with the proper training. Recognizing that unaccompanied children are 
at risk of being trafficked ensures that the government is keeping the 
child's best interest and human rights in mind.
    Furthermore, how the U.S. Government responds to the crisis of 
unaccompanied child refugees and their risk of being trafficked has 
implications beyond our borders. If the United States does not 
adequately respond to this crisis, it loses the moral authority to ask 
other nations to work harder to identify and protect trafficked and 
persecuted children.
C. Tariff Act
    Another important success in the past year was the amendment of the 
Tariff Act to close the consumptive demand loophole that for too many 
years prevented meaningful enforcement of the ban on importation of 
goods made by slave labor. We commend the bipartisan efforts of this 
committee for its leadership in closing that loophole.
    The Obama administration slowly began to enforce this legislation, 
but we need to see significantly more effort from the new 
administration on enforcement of the law, and more oversight from 
Congress. I encourage this committee to press the Customs and Border 
Protection agency to play a more aggressive enforcement role, and to 
ensure that all CBP agents who may encounter slave-made goods have the 
training and resources to effectively respond. Barriers to the import 
of goods made with slave labor is, of course, consistent with the new 
administration's emphasis on encouraging American-made products and on 
creating a level playing field in the market for U.S. manufacturers.
    This new Tariff Act provisions also provide an important 
opportunity for Congress to encourage American companies with global 
supply chains to work with the U.S. government, and with other 
governments where their supply chains extend, to ensure that their 
suppliers are complying with the requirements of U.S. law and not 
creating unfair competition for American workers by using slave labor. 
Increasingly, the private sector will need to coordinate and share 
information with governments if our efforts to end modern slavery are 
to succeed.
D. Leveraging the Power of Government Contracting
    Congress and this committee have also taken important steps toward 
ensuring that the government itself is not relying on goods or services 
provided by forced labor.
    Following President Obama's 2012 executive order, ``Strengthening 
Protections Against Trafficking in Persons in Federal Contracts,'' 
Congress passed the End Trafficking in Government Contracting Act, as 
Title 17 of the National Defense Authorization Act for 2013. That led 
to amendment of the Federal Acquisition Regulations (FAR) to strengthen 
protections against human trafficking in federal contracts, which went 
into effect March 2, 2015.
    FAR subpart 22.17 codified trafficking-related prohibitions for 
federal contractors and subcontractors, requires contractors and 
subcontractors to notify Government employees of violations, and 
notifies parties that the Government may impose remedies, including 
contract termination, for failure to comply with the requirements.
    The Executive Order and statute created a stronger framework for 
preventing trafficking by prohibiting contractors and subcontractors 
from engaging in practices such as destroying, concealing, 
confiscating, or otherwise denying access by employees to their 
identity or immigration documents; using misleading or fraudulent 
recruitment practices; charging employees recruitment fees; and 
providing or arranging housing that fails to meet the host country's 
housing and safety standards. The Executive Order and statute also 
extend anti-trafficking requirements to contracts performed outside the 
United States that exceed $500,000, including a requirement for a 
compliance plan and annual certifications.
    These laws have now been in effect for two years, but unfortunately 
we've seen little enforcement. The Executive Order banned contractors 
and their sub-agents from charging workers recruitment fees, because 
these fees often leave workers indebted and vulnerable to abuse. 
However, the term ``recruitment fee'' has not yet been clearly defined 
in the regulations. A draft definition was released last summer for 
public comment, but it has not been finalized. Robust enforcement of 
this important provision hangs on the ability of both government 
contractors and contracting officers to know what constitutes a 
recruitment fee. The definition should be broad enough to encompass 
anything of value, so that recruiters aren't continuing to charge these 
fees under another name--for example, calling them travel, medical or 
equipment expenses, a practice that has become quite common.
    Congress should support a mechanism of high-level oversight by 
creating positions of Human Trafficking Compliance Advisors who will 
work within government agencies to ensure everyone involved in the 
contracting process is trained on these new laws and brings allegations 
of human trafficking to the appropriate counsel's office. Currently, 
the legislation relies on contractors to self-report violations, which 
has not been an effective means of enforcement.
E. TIP Report
    Finally, I'd like to highlight the importance of the Trafficking in 
Persons (TIP) report, which has been a critical tool for grading 
countries on their efforts to eliminate human trafficking and 
pressuring them to improve. When countries are ranked appropriately, 
the TIP report has been an important diplomatic tool for the United 
States in addressing this global problem. Where politics has taken 
priority over trafficking concerns, however, it has been less 
effective.
    That is why we strongly support a bill recently re-introduced by 
Senators Robert Menendez and Marco Rubio, which would help to shield 
the report from political influence.
    A new provision of that bill would leverage the role of 
multilateral institutions, as called for by the United Nations' 
Sustainable Development Goals, by making it more difficult for the 
World Bank to lend to countries who receive a Tier 2 Watch List or Tier 
3 ranking by requiring these countries to first participate in a human 
trafficking risk assessment.
                iii. refugee crisis & human trafficking
A. Overview
    The world is facing the worst refugee crisis since World War II. 
One cannot effectively address the scourge of modern slavery without 
recognizing our duty to assisting those most vulnerable to it. 
Especially now, that means assisting and welcoming Syrian refugees.
    In this context, the president's recent Executive Order 
indefinitely suspending the resettlement of all Syrian refugees is 
particularly cruel and unconscionable. The United States must be 
concerned with national security and preventing terrorism. But it is 
nonsensical to ban, even temporarily, the most vulnerable refugees, who 
are only accepted for resettlement here after a rigorous cross-border, 
multi-agency screening progress that can take up to two years.
    Over and over again, national security leaders from both Republican 
and Democratic administrations have explained that protecting refugees 
does not put us at risk. On the contrary, accepting Syrian and other 
vulnerable refugees makes us safer, by burnishing our global reputation 
as a humanitarian leader and supporting our allies in the Middle East 
who are struggling to host huge numbers of refugees within their 
borders.
    Last year, a bipartisan group of former national security officials 
and retired military leaders issued a Statement on America's Commitment 
to Refugees, noting how critical it is to our identity as a nation that 
we accept refugees fleeing persecution and violence:
    For more than two centuries, the idea of America has pulled toward 
our shores those seeking liberty, and it has ensured that they arrive 
in the open arms of our citizens. That is why the Statue of Liberty 
welcomes the world's ``huddled masses yearning to breathe free,'' and 
why President Reagan stressed the United States as ``a magnet for all 
who must have freedom, for all the pilgrims from all the lost places 
who are hurtling through the darkness.''
    Unfortunately, by temporarily banning all refugees, indefinitely 
banning all Syrian refugees, and cutting the number of refugees 
resettled to the U.S. by 60,000, the president's Executive Order on 
Immigration means that the United States is turning its back on the 
very individuals who are the most vulnerable to the scourge of modern 
slavery this committee has been working so hard to end.
    In June 2016, the UN Special Rapporteur on Trafficking in Persons, 
Especially Women and Children, reported:
    People fleeing conflict [are] constantly exposed to the risk of 
trafficking any time during their journey. For such migrants, 
internally displaced persons, refugees and asylum-seekers, the 
clandestine nature of their journey, the often unscrupulous and corrupt 
conduct of their facilitators, and the extent to which some States will 
go to prevent their departure, transit or arrival, all operate to 
create or exacerbate opportunities for traffickers who prey on their 
precarious situation. Therefore, even if they were not trafficked from 
the very beginning of their journey, they can become victims of 
trafficking at some point in their journey or at their intended 
destination.
    The journey of female migrants and unaccompanied children is 
particularly hazardous, he noted. ``Thousands of such women and 
children have disappeared, presumably abducted for purposes of 
trafficking related exploitation.''
    In addition, the U.N. Special Rapporteur found that since 2011, 
``an increased number of Syrian refugees have been trafficked for 
purposes of labor exploitation in the agricultural industry, 
manufacturing, catering and informal sectors in Jordan, Lebanon and 
Turkey.''
    Sudanese and Somalian refugees and asylum seekers, including many 
unaccompanied children, have been kidnapped or lured from refugee camps 
or while traveling, sold and then held captive for exploitation.
    There has also been a high incidence of trafficking and 
exploitation among poorly-educated Afghan, Syrian and Iraqi men and 
boys traveling alone.
    People of the Rohingya Muslim minority fleeing persecution in 
Myanmar were being smuggled across borders and trafficked to fishing 
boats and palm oil plantations. Others were held captive and abused in 
Malaysia.
    The causes of this growth in modern slavery, the Special Rapporteur 
explained, include: ``increasingly restrictive and exclusionary 
immigration policies, including criminalization and detention of 
irregular migrants, insufficient channels for regular migration and 
family reunification and lack of regular access to the labour market 
for asylum seekers, refugees and migrants.'' (UNSR, June 2016)
B. Recommendations
    The refugee crisis is, of course, a multi-faceted problem, and not 
one that Congress can solve on its own. However, there is a good deal 
this Congress and this committee can do to champion the resettlement of 
refugees, provide information to trafficking victims, maintain critical 
safeguards, and train U.S. officials who may encounter trafficking 
victims and refugees about how best to ensure their protection.

        1. Rescind Provisions of the Executive Order on Immigration

                a. We strongly support Senator Dianne Feinstein's bill, 
                S.274, rescinding the provisions of Executive Order 
                13769. There is no need to issue a blanket ban on entry 
                of individuals from the seven specified countries 
                (Iran, Iraq, Libya, Somalia, Sudan, Syria, and Yemen), 
                and even less reason to halt the U.S. refugee program. 
                As we and many others have explained, refugees 
                resettled in the United States already face ``extreme 
                vetting'' and are actually the most carefully screened 
                of anyone who arrives here. Accepting refugees is also 
                widely seen as helpful to U.S. national security.

                b. In addition to rescinding the order, we urge 
                Congress to maintain current funding levels for the 
                refugee resettlement program.

                c. We also support Senator Kamala Harris's bill, S.349, 
                to clarify that all persons who are held or detained at 
                a port of entry or at any detention facility overseen 
                by U.S. Customs and Border Protection (CBP) or U.S. 
                Immigration and Customs Enforcement (ICE) are allowed 
                access to counsel. This is particularly important for 
                women, children and others vulnerable to trafficking, 
                who are often unaware of their rights at the border.

        2. Ensure Vulnerability Remains the Criteria by Which Refugees 
        are Prioritized for Admission, not Discrimination Against 
        Specific Refugee Populations

    In addition to financial support for particular programs to help 
identify and protect refugees who have suffered or are at risk of 
trafficking, it is critical for the United States to lead globally 
again on resettling vulnerable refugees, without regard to religion or 
nationality, and respecting the human rights and refugee protection 
treaties that are so essential to global stability.
    Those treaties rightly mandate that people should be protected from 
religious persecution. Yet the Trump administration's proposed policy 
of allowing Christians into the United States while barring Muslims is 
itself a form of religious discrimination. Religious tests like the one 
embedded in President Trump's executive order are illegitimate and 
inconsistent with our values as a nation.
    To aid trafficking victims in particular, we also urge the issuance 
of humanitarian visas, increased flexibility in the family 
reunification processes, launch of a program to allow for private 
sponsorship of refugees by Americans, and student scholarship programs 
to reduce the incentive for victims to turn to smugglers or 
traffickers.
    The United States must also lead by example at home, making sure 
that refugees and those at risk of trafficking, including children, 
have access to protection at our borders.
    Finally, when it comes to child refugees, who face the greatest 
risk of trafficking, the best interests of the child should be 
paramount. The United States should not force children to return to the 
societies they fled, where they may be recruited by military groups and 
end up alone and isolated from their families and communities, leaving 
them especially vulnerable to trafficking.
                               conclusion
    These are difficult times for millions of people living in poverty 
and conflict around the world. The rise of modern slavery is one of the 
tragic consequences of these intractable problems, but it is one that 
this Congress can do something about. This committee has taken 
important steps to end modern slavery through the legislation and 
oversight. But it is not enough. The scope of this problem demands that 
we tackle it at the roots. At its core, slavery is about exploitation 
and dehumanization of vulnerable people. If our country is to be a 
global leader in the fight against human trafficking, we cannot turn 
our backs--at a time when they most need us--on the very people most 
likely to become its victims.
    Thank you.

    The Chairman. Thank you.
    Ashton, I was going to ask you a different question, but 
after hearing your opening comments, I am going to reframe it. 
I think you shared how you became involved in this and your 
compassion and passion for ending it. And we thank you for 
that.
    We have embarked on a program now that is a public-private 
partnership of major proportion. It is where the U.S. would 
lead. We would get other governments to help on a two-to-one 
basis and the private sector to help on a three-to-one basis to 
put in place an effort that would have metrics, an effort where 
we would be able to measure results, measure the problem, 
measure results. And I just wondered, based on the experiences 
that you have had in the private sector establishing metrics 
and models to end this scourge on mankind, what kind of advice 
would you give us as we set up this international effort that 
is based here but led by the United States?
    Mr. Kutcher. I think my first piece of advice would be to 
lead with compassion as you approach these private sector 
companies. These companies have customers and they care about 
their customers and they want their customers to know that they 
are doing the right thing. And I think great companies have a 
conscience that promote them to actually do the right thing.
    The second thing--I mean, you basically said it in your 
question to some degree, which is you have to be able to 
measure results. And I oftentimes believe that if you cannot 
measure it, you cannot improve it, and if you cannot improve 
it, you are working blindly.
    But also what I would encourage is to ensure that whatever 
buckets of capital are being deployed to actually deploy that 
capital in a way where there is not a risk aversion in shooting 
for the fences. If what it is that you are trying to apply to 
the issue does not have a potential 10X outcome but also the 
same potential to fail, you may not get the results that you 
want. And as I work with entrepreneurs across the country, the 
extraordinary thing about the entrepreneurs I work with in 
Silicon Valley is that they are not afraid to fail. It is 
unbelievable. As a kid from Iowa that was taught to be 
responsible with everything and make sure every dollar counts, 
they just go for it like full-blown. And so if you deploy the 
capital in a way that allows people the opportunity to fail but 
also massively succeed, you may find that you have much greater 
outcomes than what you do by making the safe choices with the 
deployment of the capital in large chunks into some--well, 
obviously, that is the good feel. Oftentimes the greatest idea 
comes when those people are not afraid to fail. And so giving 
them permission to shoot for the fences I think is an important 
piece of the puzzle.
    The Chairman. I am going to turn to Senator Menendez. These 
people are coming back, by the way. We have got a vote that is 
underway. I think we are going to try to time it where we do 
both at one time.
    Senator Menendez, do you want to go and come back?
    Senator Menendez. Yes, Mr. Chairman. I think there is only 
2 minutes left on the vote. So I do intend to come back 
notwithstanding the caucus.
    The Chairman. So here is that we are going to do and this 
is strange, but we are going to recess for just a moment until 
the next person comes back and we will resume. And I apologize 
for this, but I am sure lots of people would like to have their 
photograph taken.
    Mr. Kutcher. I prefer not to talk to no one.
    [Laughter.]
    The Chairman. We will be back.
    Mr. Kutcher. Although I do it quite often.
    The Chairman. We are in recess until someone returns. Thank 
you.
    [Recess.]
    Senator Young [presiding]. I want to thank our witnesses 
very much. As you are well aware, we have votes going on right 
now. But with the chairman's guidance, we shall continue here 
out of respect for your time.
    We will begin with my own questions. As other members roll 
in, we will entertain those.
    But, Mr. Kutcher and Ms. Massimino, thank you so much for 
your leadership. This is such an important area. We are shining 
a national spotlight on the importance of it, and I am just so 
grateful for your efforts.
    Do you both agree, as you work on this issue, that the 
State Department's annual Trafficking in Persons report is a 
valuable resource in your efforts to fight human trafficking 
and the scourge of modern slavery?
    Mr. Kutcher. Yes.
    Ms. Massimino. Yes, absolutely we do. I do.
    Mr. Kutcher. And presumably you cannot solve the problem if 
you do not know how big it is.
    Senator Young. That is right. So presumably we want that 
report to be as accurate and as comprehensive as possible. 
Right?
    Ms. Massimino. We do.
    Mr. Kutcher. Yes.
    Senator Young. These are what we call leading questions. 
Right?
    [Laughter.]
    Senator Young. So tomorrow I plan to introduce a piece of 
legislation called the Department of State and United States 
Agency for International Development Accountability Act of 
2017. The legislation is needed to provide this committee 
greater transparency regarding the more than 180 General 
Accountability Office recommendations for the departments and 
USAID that have not been fully implemented. And among the 
recommendations are at least two or three recommendations 
pertaining to this very area, about which you and so many 
others are passionate.
    The legislation will enable Congress and this committee to 
conduct even more effective oversight, something we can always 
improve upon. It would require State and USAID to provide a 
timeline for implementation of these anti-trafficking 
proposals, as well as other proposals. And it would ensure that 
any GAO recommendation that is not implemented--we are certain 
as to why that is, given some rationale for that.
    So given the large number of open recommendations, it would 
be my hope that most would be implemented and that we can get 
bipartisan support for this effort.
    So I am inviting members of both sides of the aisle to work 
with me on this legislation. We will be dropping it tomorrow.
    I would like to ask both of our witnesses about the growing 
impact of sexual exploitation, forced labor, what we generally 
call modern slavery here in our own country. Some of my 
thinking on this issue is informed by good work that has been 
done in my own State of Indiana. With the leadership of the 
Indiana Attorney General, our former U.S. Attorney, and now so 
many other stakeholders in our State, we have put together a 
report in our State, the 2016 Indiana State Report on Human 
Trafficking.
    Typically, we ask for unanimous consent to enter this into 
the record. I consent to have it entered into the record.

    [The material referred to above can be accessed at the 
following url:]
    https://www.in.gov/attorneygeneral/files/
ht%20report%202016.pdf

    Senator Young. I think this will be instructive to further 
your efforts and those of others who are working on this issue.
    This was the product, this report and the related 
initiatives in my own State of Indiana. It was a product of a 
public-private partnership to address the unique challenges 
that our State and others are facing.
    The report indicates that the coalition of service 
providers served 178 trafficked youth in 2016 alone. 178 people 
in my home State of Indiana. Of those youth under age 21 served 
by Indiana providers statewide in 2016, nearly all were girls, 
94 percent. As a father of three young girls, I feel 
particularly passionate about the need to address this, but I 
note that this is something that afflicts both genders as well.
    The report found nearly 30 percent of those impacted are 15 
or younger, and more than 10 percent are between the ages of 12 
and 14. All of my children are younger than that. In Indiana, 
victims were as young as 7 when first trafficked.
    These statistics are, of course, heartbreaking. They speak 
to the broader challenges we face nationally and 
internationally. If you could each speak to whether the trend 
lines in the State of Indiana are reflective of your findings 
across the country, the ages, the gender.
    Mr. Kutcher. So most studies have found that the average 
age of entry into sex trafficking is about 12 years old. I 
think most of the numbers that you are finding in your State 
are accurate.
    Relative to the legislation that you were alluding to 
earlier, I would like to ask, then what? So we measure it and 
we know it is a problem, but then what? And what are the 
consequences if the reporting is not there, and what is the 
consequences if they do not use the tools, if the tools are 
being used? I am just curious about that relative to that 
legislation.
    Senator Young. I would be happy to indulge that question. 
So working with the chairman and the ranking member and people 
on both sides of the aisle, I think we should make every effort 
to make sure that the State Department has a specific, concrete 
plan of action comprehensive in nature that would arrest this 
problem internationally since that is the focus of the State 
Department. We also need to have a domestic range of solutions 
to this. And then we need to resource. We need to resource our 
action plans at the State level, at the federal level. I know 
that has been a point of emphasis in your own testimony.
    Here on this committee, perhaps the first step is to see 
that members on both sides of the aisle continue to work to 
push an authorizing bill, something the chairman has really 
shown some leadership on recently, and to the extent we can 
include human trafficking and other things moving forward on 
that, that is a part answer to your question.
    So, Ms. Massimino, do you have additional thoughts on the 
trend lines in Indiana versus the country?
    Ms. Massimino. I do. I do think those are reflective of 
what we see.
    I also want to say I think it is really important, the 
State level focus on trafficking. This, as I said, is a big 
global problem, very complex, and there are lots of different 
ways we need to tackle it. But it is really quite important. 
That sounds like extraordinary leadership at the State level to 
be tackling these issues really kind of close to home.
    One of the things that you heard from both of us is the 
importance of--you know, reporting is for the purpose of being 
able to measure progress--right--and to get data so you know 
what strategies are working. One of the things that Human 
Rights First has been really focused on is making sure that 
State and federal law enforcement have the resources that they 
need to go after higher up in the food chain, if you will, of 
these criminal enterprises that are exploiting people, both on 
labor and sex trafficking.
    You know, labor trafficking cases are a much smaller 
percentage of the overall prosecutions that happen, but there 
are a greater percentage of victims that are in the labor 
trafficking area. They are much more complex and expensive 
cases to bring, but they are really important.
    I think Congress should pay particular attention to making 
sure that these human trafficking prosecution units are well 
funded and can work in coalition at the State and local and 
federal level law enforcement to integrate the solutions to 
those problems.
    You also mentioned the public-private partnership piece.
    Senator Young. I did and that was my next question. So 
thank you for anticipating it, but I do not have to cut into 
the chairman's time now that he has reentered the room. Maybe 
you could speak to the importance of that, each of you. I know, 
Mr. Kutcher, you mentioned it in your testimony as well. IPATH 
is the Indiana State report on human trafficking and the entity 
it created to help fight this scourge in our own State. It is a 
not-for-profit initiative. There are over 75 organizations 
statewide focused on collectively addressing this issue, and 
perhaps you could speak to the importance of these sorts of 
public-private partnerships in addressing modern slavery, each 
of you. Thank you.
    Mr. Kutcher. Just to touch on the point that Elisa is 
making, I think another thing that should not be lost is the 
focus on demand prosecution in the space. These are victims. 
You said it yourself. These kids are 12 years old, 13 years 
old. That is not a criminal. That is a victim of a crime. And 
if we are not prosecuting the buyers, if we are not prosecuting 
the traffickers not just for trafficking, but that is statutory 
rape and it should be treated as statutory rape and prosecuted 
as rape. And I do not think that we do a good enough job yet of 
addressing that issue in that way.
    Senator Young. Do either of you have thoughts on what we 
might do to bring more of these individuals to justice to 
prosecute them?
    Mr. Kutcher. Well, it is my understanding that there is an 
initiative underway currently that will address this within the 
judiciary system. And I think the best thing that we can do is 
to support that initiative.
    Senator Young. Continue to support that.
    Ms. Massimino. I think also making sure that these safe 
harbor provisions that have had so much bipartisan support here 
in Congress that would treat victims like victims are very, 
very important.
    The public-private partnership aspect of this I think is 
absolutely key. You know, there is a lot that government can do 
and should be doing, that all governments globally should be 
doing and collaborating together on this. But as Ashton pointed 
out, the supply chain issue, the pipeline into slavery--we have 
to be looking at that.
    So I would say there should be kind of 3 P's in this 
public-private partnership. It should be also the private 
sector companies, American companies in particular. You know, 
when I talk about American leadership on this issue, I do not 
just mean the American Government. I mean all of us. And in 
many places in the world, American companies are the American 
brand. So making sure that we enlist those companies, 
especially now that you all have passed legislation that amends 
the Tariff Act which for decades allowed for this importation 
of child-made and slave-made labor through this consumptive 
demand loophole that was in existence. You have closed that 
loophole down, and that is a potentially transformational thing 
in the world of human trafficking.
    Now we have to make sure that it is enforced, that the 
Department of Homeland Security enforces it, that companies 
understand what they need to do. Most companies do not want 
anything to do with slavery, but many of them do not understand 
what they need to do to look at their supply chains and make 
sure that there is no forced labor in there and no child labor. 
So we have to come together to talk about that.
    And one of the things that you all could do--a report was 
due to you from the Department of Homeland Security I think 
back in August on how they are implementing this very important 
new provision that you passed, and it has not been submitted 
yet. So I would urge you to ask for that, and we would love to 
come in and talk with you about it.
    Senator Young. Well, thank you. Thanks for your ideas and, 
again, for your counsel on this. And we will continue to stay 
vigilant even when the klieg lights are off, and that is really 
the important thing with respect to our oversight role. And 
thank you so much for this opportunity.
    Mr. Chairman?
    The Chairman [presiding]. Thank you very much for coming 
back and filling in that way. I very much appreciate it.
    I have had two experiences I guess that had a big impact on 
me. One was hearing the statement of someone in the audience, 
Louie Giglio, speaking to his congregation saying, if not you, 
who? And I think we all know what that means. And we together 
who hear that message need to be the people who involve 
ourselves in ending this.
    The other was an experience in a group of about 20 young 
ladies in the Philippines going to the police department there, 
seeing what a U.S. private entity was doing to teach them about 
prosecution, seeing how this is a crime of opportunity. Most 
people think this is largely the mafia, and they definitely are 
involved. But it is really, as you both know, a lot of small 
business people that take advantage. They have dominion over 
people and they use this to make money.
    But part of our efforts--and we need to measure this and we 
need to end it, and that needs to be our focus. Part of the 
effort also has to do with what we do with victims after they 
have been victimized. And one of the efforts that to me was so 
impressive was seeing how these young ladies who maybe were 13 
or 15 and maybe they were in the rural part of the Philippines 
and maybe a gentleman came by and said, hey, how would you like 
to go to Manila for the day and they find themselves in 
Malaysia in a brothel for 7 or 8 years or they find themselves 
in a place that they cannot get out of. But they also have to 
have a place to go. They have to have a place to be protected 
from people who otherwise would kill them for testifying 
against them. They have got to have a way of coming back into 
society.
    Could you speak to personal experiences there and what we 
need to do as a nation working with others to address that 
component also?
    Mr. Kutcher. Sure. This is the pipeline out. There are four 
or five organizations domestically that I think are doing 
extraordinary work. There is an organization called My Life My 
Choice, Journey Out, Courtney's House, Rebecca Bender 
Initiative, and GEMS. I have had the privilege to spend some 
time with GEMS and look at the organization and sort of assess 
the effectiveness of it. They do extraordinary work. They 
recognize these victims as victims. They do the best they can 
to rehabilitate them.
    I think one of the things that we can definitely do is look 
across that sector of NGOs and find the ones that are the most 
effective and then try to assess what the best practices of 
each one of those individual organizations are and then 
replicate that and grow it.
    You know, as you have said, as I said, I think there has to 
be accountability in our spending relative to this, but there 
are some simple low-hanging opportunities within these 
organizations that I actually think the private sector can come 
in and be drastically supportive. I mean, the administration 
roles within these organizations are being done a lot of times 
on these kinds of books. And I think that there is the 
enterprise software that could be given away for free by many 
private companies and that could create massive efficiencies 
inside of these organizations.
    But at the end of the day, you have to have a place to keep 
these people.
    You know, I was in Russia and the girls that were getting 
let out of the orphanages all get let out at about at the same 
age. And the traffickers would circle the orphanages waiting 
for those girls to hit that prime age where they could use 
them.
    So if people do not have a place to go, if they do not have 
an environment of love and support and then the expertise to 
help them with the mental health issue of the abuse that they 
have endured, they do not get better. So I think mental health 
is a gigantic issue in this country in a lot of ways, and I 
think that we need really look at this not only as a slavery 
issue but as a mental health issue and ensure that the finances 
and the support is going into that arena as such.
    Ms. Massimino. This is a problem globally as well. It is 
very similar. We have worked closely with many Yazidi women. We 
gave our human rights award last year to a Yazidi woman 
activist. She and her husband are rescuing women who have been 
abducted and are being held in sexual slavery by ISIS. And 
these women are so traumatized. They are now barred from coming 
here under this order. But they have said if you cannot save us 
from this, then just bomb us because we cannot survive this.
    You know, one of the things that I think the United States 
could be doing there--they need mental health services 
desperately even if they cannot come here to get them. And I 
think there is more that we could be doing to fund 
organizations that can provide those kinds of services to women 
who have suffered just unspeakable horror. Many of them are 
children.
    The Chairman. Thank you.
    Senator Menendez is back, and he was the lead other sponsor 
of this legislation and has been my friend and certainly an 
advocate for victims and human rights. So I thank you and look 
forward to your questions.
    Senator Menendez. Thank you, Mr. Chairman.
    First, I would ask to submit into the record Human Rights 
First's blueprint for Congress, how to dismantle the business 
of human trafficking.
    The Chairman. Without objection.

    [The information referred to can be found at the end of the 
hearing.]

    Senator Menendez. Mr. Chairman, first of all, let me say 
that my experience in the Senate--I was speaking with Senator 
Young yesterday about the difference between the House and the 
Senate where we both have served--is the fundamental difference 
is that one Senator committed to an idea or an ideal and 
willing to fight for it can create change. And you did that in 
the context of human trafficking. You made it a singular issue. 
You were focused on it like a laser beam. I am glad to have 
worked with you on it, but clearly you deserve the credit. And 
it is the embodiment of what you can do in the Senate when you 
choose to do so. I want to salute you on that.
    I have listened to both of your testimony with great 
interest. And we are having a major caucus on Russia right now, 
but this is important. So I have questions for both of you and 
I hope to get to it in my time. Maybe the chairman will be a 
little generous with the time.
    The Chairman. Take as much time as you wish.
    Senator Menendez. All right. Thank you. I appreciate it. I 
will not do that, but I do have some questions.
    Ms. Massimino, as you know, there have been serious 
questions both from the Foreign Relations Committee and civil 
society organizations regarding the integrity of the past 2 
years' Trafficking in Persons report. To me, that report is the 
gold standard, and I want to show why it is so important. Mr. 
Kutcher said the reports are important, but what do we do with 
them? He is right.
    The reports have a template for how we judge countries in 
the world.
    The amendment that I got into law, which now denies a 
country who is in Tier 3 of trafficking any preferential access 
to the United States in terms of any trade agreement, is 
incredibly important, a powerful tool. But, of course, we need 
the right type of reporting to ensure that those who are in 
that category do not get arbitrarily and capriciously removed 
from that category unless they have done the things that are 
necessary to, in fact, be removed from it, which would be good 
for the victims of trafficking in their countries because that 
means they will have improved their standards.
    Now, I introduced legislation, bipartisan legislation, with 
Senator Rubio and Senator Kaine and Senator Gardner that makes 
sweeping reforms to restore the integrity to the Trafficking in 
Persons ranking process. I know and I believe there is 
bipartisan consensus that reforming the ranking process is a 
priority that we should address early in this Congress.
    Can you speak to, number one, your organization's reactions 
to the 2015-2016 TIP report, and what damage, if any, do you 
think that created, and to the importance of the integrity of 
the TIP report as a foundational issue for us globally to 
challenge countries in the world to do what we think they 
should be doing to end modern day slavery?
    Ms. Massimino. Yes, absolutely. And thank you very much for 
your leadership on that legislation and on the TIP report.
    Human Rights First has focused a lot of attention over many 
years on reports coming out of the State Department that have 
been mandated by Congress and why it is important for those 
reports to be basically just the facts, you know, not colored 
by political considerations. For many years, the State 
Department country reports annually--we did a critique of those 
because we felt there was too much political influence across 
administrations from different parties, but there was too much 
political influence and other concerns going into kind of 
shading the facts in those reports. So we have been very 
vigilant. Actually we stopped doing that critique because we 
felt that the State Department country reports had improved 
significantly and were much more objective.
    The point of reports like that is really to provide a 
baseline for policy. They are not policy, but they are to 
provide a baseline for policy. And that is why it is so 
important that reports like the State Department country report 
and the TIP report are just the facts and really have 
integrity.
    So we were very concerned, as many were, that there 
appeared to be movements of some countries up on the scale 
without any demonstration or transparency about what the 
reasons were for that.
    You know, the TIP report has actually been a really 
important tool for diplomats and others to use. We have 
instances where countries have really been pressured to 
actually improve their performance as a result of the ranking 
process. So it is really important to have transparency about 
how those rankings are made and to make sure that countries do 
not get a free pass just because we have other business to deal 
with.
    Senator Menendez. That is a concern. This is as important 
as this committee has dictated in a bipartisan way, which means 
that you cannot subvert its importance because you have 
economic reasons with a country, maybe to some degree even 
security reasons with a country because when you do that, then 
you undermine the essence of the importance and the integrity 
of trying to end human slavery.
    In that regard, my legislation requires TIP rankings to be 
contingent on concrete actions taken by a country in the 
preceding reporting period and that the State Department must 
specify how these actions or lack thereof justify the ranking. 
A recent GAO study highlighted this is a major gap in the 
existing TIP ranking process.
    Would you support such changes?
    Ms. Massimino. Yes, we would.
    Senator Menendez. Mr. Kutcher, let me ask you. 
Extraordinary work. And I heard, just before I had to leave to 
go vote, your answer to the chairman about having the freedom 
to go big and take a risk to develop the technology that might 
be the next cutting edge on how we further help law enforcement 
and other entities both capture those--reclaim those lives that 
have been lost to human trafficking, capture those who were the 
traffickers themselves, prevent efforts on trafficking.
    I sit on another committee here on the Finance Committee 
which deals with all tax trade and incentives. If there was a 
way to incentivize that effort by you and others similarly 
situated, is there a specific way beyond letting you go big? 
Are there tax incentives? I think about already the systems you 
have, and I think about other countries. Maybe one of the 
requirements we should have is that other countries should use 
the best available technology at the time, something that we do 
not have a requirement to, and an estimation as to whether they 
are moving in the right direction on human trafficking. Can you 
help me a little bit on that on how we take what you have done 
and create a greater opportunity for its deployment?
    Mr. Kutcher. Yes. I think at its core, the reason why most 
of our partners, private company partners, in the space are 
technology companies is that they are naturally incentivized to 
actually do something about this. So for the most part, there 
is a CDA 230--these companies want to perform--they want their 
tool to be used in the right way. Right? And they do not want 
their tool to be regulated because then it regulates the 
potential of the tool for good. And I happen to support that 
notion that it is user that is the malicious actor. But in 
order for these companies to maintain that stance, it is my 
belief that they have to support efforts in technology to 
actually grow tools that fight against these types of 
atrocities that are happening on their platforms. Therefore, we 
have had extraordinarily willing participants in that effort.
    I think we have also launched a best practices guide for 
companies relative to trafficking because I think that when 
your employees are involved in this space or your company in 
some way, shape, or form touches this space, I think it 
actually affects the quality of your company and the 
performance of your company in the long term. And so I think 
having companies become aware of these best practice guides----
    But I think there is also a larger issue relative to what 
we call modern slavery, and I think it is actually just in the 
nomenclature of calling it modern slavery. It is slavery. It is 
just slavery. I think we do a disservice to the people that 
were slaves in this country for so long and the oppression that 
they felt in the years following by not calling it what it is. 
And if we just call it slavery from a nomenclature perspective 
and acknowledge the fact that just because a person is of a 
different nationality or that they are being sold for sex makes 
it something different so that we can pat ourselves on the back 
and say, well, we have abolished this and we have already done 
all that we can, I think that will have a giant impact because 
I think it motivates people emotionally to actually build 
things.
    On the other side, I think that these tools are best built 
in the private sector, and the reason why I think that they are 
best built in the private sector is we are willing to take 
those risks and we are willing to create that accountability.
    Now, when we get to the level of where it is becoming a 
fundamental institution to solving the problem and we have 
4,000 law enforcement officials and 900 agencies using the 
tool, well, now we have shown its effectiveness. We have shown 
that it can be measured. We have shown that it can be improved. 
And at that point in time, I think it becomes incumbent upon 
the public sector to step up. We give our tools away for free. 
They are 100 percent free. I look at it like Facebook. We grow, 
grow, grow, grow, grow, and at some point in time, we can turn 
on a revenue model that creates sustainability within our 
organization.
    So I think they are best incubated in the private sector, 
but at a certain point, the public sector needs to recognize 
that tool works, we need that tool, it is effective, and we can 
leverage it domestically and internationally to behoove 
everyone.
    Senator Menendez. Thank you.
    And finally, Ms. Massimino, let me ask you. Your testimony 
noted a new provision in the bill that myself, Senator Rubio, 
and others have introduced that requires the multilateral 
development banks to conduct a human trafficking risk 
assessment for projects in Tier 2 watch list or Tier 3 
countries as a condition of U.S. support.
    Now, it is my hope that these assessments can draw together 
a wide variety of stakeholders from international civil society 
organizations, local communities, law enforcement, and others 
to ensure that development bank projects work to combat human 
trafficking wherever possible. And I hope that as part of that, 
organizations such as yours would be called upon by the 
multilateral development banks.
    But it seems to me that we have done a few things here that 
are important, but we have a lot more tools at our disposition 
that we can use in the multilateral development banks, having a 
strong TIP report, thinking about how we incentivize the 
technology either by allowing it to be free, as you suggested, 
in terms of its ability to go big, thinking about there are 
privacy elements so that we ultimately do not constrain it in a 
way that is unnecessary and maybe even looking at other 
countries and saying one of the ways in which we will test 
whether or not you are moving in the right direction is are you 
employing the latest available technologies that can help you.
    And so I appreciate what we have gleaned from both of your 
testimony and look forward to continuing to work with you.
    Do you have a comment?
    Ms. Massimino. I just want to underscore that I think this 
provision that you have talked about with requiring an 
assessment of implementation of anti-trafficking with the 
development banks I think is just part of what we have been 
talking about how you take the data and use it to leverage 
change. I completely agree with you, Senator, that we have a 
lot of tools that are not being fully used to tackle this big 
problem. And a lot of what you all have done here has moved the 
ball forward between the federal acquisition regulations and 
the statute, seeking to implement that, making sure that the 
changes to the Tariff Act get implemented. There is a lot that 
this body can do to take those tools and make sure that they 
are being fully exploited for good. And that takes a lot of 
attention. It sometimes takes money. But if we can pull this 
all together, I think that is the way that we are really going 
to make a dent in this problem.
    Senator Menendez. Thank you. I see my colleague is here who 
helped me write the bill, and I appreciate his support 
alongside of me.
    Senator Rubio. Thank you both for being here. I am sure the 
chairman told you he had to go vote. He will be back any minute 
now.
    I know you have talked about the integrity and the 
Trafficking in Persons report, and I do not know what has been 
discussed already. But one of the points I have made--this is 
always an issue when it comes to human rights, and that is the 
balance between our geopolitical relations and information 
about potential allies that is embarrassing. And I think you 
would both concur that, first of all, the Trafficking in 
Persons report--a lot of people think about it as just a piece 
of paper the U.S. Government publishes. But it has in fact been 
impactful. Part of our role here is to shame those who are less 
than cooperative in the efforts to tackle this, including 
people here at home but also in governments abroad.
    And I just think I want to reiterate what appears to have 
already been discussed: how critical it is that this report be 
free from political interference. And to be blunt, the notion 
that someone could come in and say to the State Department, 
look, I do not want to change the tiering of a country because 
we have got a good thing going with them on some other foreign 
policy issue and we do not want to offend them--and it is my 
feeling that that occurred in the last report. That cannot 
happen again. And so our hope is to prevent that from 
happening, and I would imagine every advocate out there 
believes that as well, especially since we as a nation are 
also, hopefully, being honest about our own internal problems 
with regards to that.
    The first thing I want to talk about, Mr. Kutcher, is the 
Thorn website. And, again, you may have talked about this 
already. It may have been asked and I apologize. But the 
website talks about people using the Internet to share child 
abuse material are doing so with seemingly low risk of getting 
caught.
    So I am interested in learning how Thorn collaborates with 
law enforcement in the United States and around the world, 
especially with countries that have weak criminal justice 
systems, to change the sort of behavior with impunity of this 
criminal activity and at the same time using that also as a 
tool to, hopefully, train law enforcement agencies about 
victim-friendly procedures. There are places around the world--
quite frankly, there have been jurisdictions in the United 
States that if, for example, someone is being trafficked into 
prostitution, they are arrested for the crime of prostitution 
and treated as a criminal as opposed to as a victim. And we 
have had arguments with law enforcement about that, some of 
whom argue to us that is the appropriate way to do it. That is 
the only way to break them free from the endeavor. In other 
cases, I have had some disagreements with regard to that.
    But is Thorn working to kind of end that cycle of impunity 
where people think we can do whatever we want, the chances of 
getting caught are very low, and quite frankly, the penalties 
in some places are not very high?
    Mr. Kutcher. Thank you for the question.
    You know, at its core, one of the issues with sex 
trafficking, specifically domestically and most certainly 
internationally, is the lack of attention that it actually gets 
from law enforcement--resources I should say. You know, most 
trafficking divisions in police departments across this country 
are maybe one or two people, and they are understaffed and 
under-financed. When we first went in, we were looking at the 
tools that they were using, and they were going into chat rooms 
and trying to strike up conversations with traffickers or 
trafficking victims in order to get leads on an investigation.
    We saw, specifically relative to minors, that if we could 
create a platform or a tool that helped them prioritize their 
caseload by understanding what we call a maturity score of the 
victim, we could help get the victims as early as possible out 
of the system and as young as possible out of the system first. 
So we have created this prioritization tool. I would be happy 
to show you Spotlight at some point in time. I do not want to 
reveal too much about it because I do not want to risk the 
enduring power of the platform. But we help them prioritize 
their caseload.
    And basically what we are doing is just taking this 
Internet, which is largely anonymous in many ways, and making 
it far less anonymous. We can track victims as they get 
trafficked across State lines. We have investigation tools that 
allow us to understand the full picture, the full story of the 
trafficking victim over time and the trafficker over time, 
which is admissible in court and which is really good evidence 
in order to prosecute these cases.
    Senator Rubio. And this question is for both of you. It is 
one of the things that you hear a lot about, which I find to be 
one of the most grotesque and outrageous things I have seen, 
and that is the conduct of BackPage.com. There was a recent 
article in the Miami Herald that talked about a local 
organization that is filing a federal lawsuit against 
BackPage.com, and it found that in my hometown of Miami-Dade, 
over half the adult victims in human trafficking cases and 40 
percent of minor victims were being advertised on BackPage.com. 
As you are probably aware, the Senate has also conducted an 
investigation with regards to that and issued a report.
    So following that report, BackPage has closed the adult 
section in which advertisers solicited services. However, it 
has been reported that the ads are now running on the dating 
section, and some are now asserting--and I agree--that this is 
nothing more than a publicity stunt. And I would welcome both 
of you to comment on that change. In the end, did they not just 
change the name of the same activity?
    Mr. Kutcher. So this has been happening long before 
BackPage. I think 6 years ago, I started going after the 
Village Voice for advertising sex on their platform, and 
actually the way I went after them is I went after their 
advertisers and said, hey, do you know that this is happening? 
And the advertisers quickly pulled back and the Village Voice 
started to have some issues relative to that.
    I talked to the founder and CEO of BackPage 5 years ago and 
said we are watching. We know what is happening. I know you 
know what is happening. You can either join us in the fight 
against it or you are going to become the tool for it. And they 
really sort of did not want to hear about it.
    Craigslist, on the other hand--the founder, Craig Newmark, 
was very willing and interested in fighting this and was 
actually distancing himself from what was happening on his 
platform. We watched. We technically watched the traffic move 
from the adult section to the women seeking men section. We 
watched it. We analytically watched it happen moments after it 
was shut down. Moments.
    So you look at it and you go it is a game of whack-a-mole. 
Right? And the only question that we have is not relative to 
censoring it. It is not relative to shutting down the Internet. 
It is relative to can we build the tools that are better than 
their tools to fight what is happening. There are sites in the 
United States that do this other than BackPage--a lot of them, 
in fact. There are sites internationally that are doing this 
that are other sites. It is happening all over the place. It 
has been happening for decades in print media. We are now just 
recognizing it for what it is, and I think that that is the 
most important part. And secondarily to that is let us build 
the tools and let us finance the tools and let us deploy the 
tools to fight back.
    Ms. Massimino. So I think that BackPage has to be held 
accountable for what they are doing, and one of the things that 
they are doing right now--there is evidence that shows that 
they have been doctoring the ads, up to 80 percent of their 
ads, to conceal the underlying transaction, meaning that when 
they do that, they should not be protected by the law. Current 
law--and there are some good reasons for it--says that Internet 
sites that allow third parties to post are not responsible for 
the content of that post. But you do not have to change that 
law to go after what BackPage is doing right now. It appears 
that they are intentionally altering ads to make underage 
people look like they are consenting adults, and that is 
despicable and wrong and they should be held accountable for 
that.
    The Chairman. Thank you so much. Thanks for being here.
    Before turning to Senator Coons, Jean Baderschneider is 
here. She is the lady sitting up front. She has been an 
operational leader here. She, years ago in an airport in 
another country, saw a young lady that she thought was being 
trafficked. She went to talk to officials. She came back. She 
was gone. And it haunted her, and she has committed her life to 
dealing with this issue. So we thank you for that. We thank you 
for helping us be in the place that we are today, ready to 
launch what is happening.
    And with that, Senator Coons?
    Senator Coons. Senator Corker, I just want to thank you. I 
want to thank you for taking the experiences that others have 
brought to you and applying your skills, your leadership, and 
your passion to mobilizing this committee to engaging in a 
bipartisan way on legislation, to fighting tirelessly for 
funding, and to empowering organizations that have got the 
skills, the tools, the passion to now go out and make a 
difference. And I am excited about the opportunity to continue 
working with you in this critical fight to end human slavery in 
the modern era. Thank you for your leadership on this, Chairman 
Corker.
    There are other great folks on this committee who have also 
been leaders on it, Senator Cardin, Senator Menendez, many 
others. As some of you may know, I have spent a lot of my time 
in Africa as a member of this committee, as the former chairman 
of the Africa Subcommittee. It is tragic what we know happens 
to people who are victims in this country and in countries 
around the world.
    So I mostly just want to thank you. Ashton Kutcher, thank 
you for your leadership and your innovation. I am excited to 
see your tool and how it works and to better understand what 
Thorn is deploying here in the United States. And you have got 
some terrific people working with you, Julia and others, who 
help make this real each and every day.
    And to Ms. Massimino and Human Rights First, thank you for 
also providing the analysis and the support. There are a lot of 
great organizations in this space. We need many, many more. The 
scope of this problem dwarfs the resources we currently have 
deployed against it. But, you know, look, there are days here 
that are somewhat partisan and where it is somewhat 
frustrating, and we do not get as much done as we would like. 
This is a moment that is worth focusing on because it is a 
moment where we can recognize significant progress.
    I am the co-chair of the Law Enforcement Caucus, and given 
what I read in your testimony and what I have heard, I hope we 
have a chance to talk further about exactly how we get U.S. law 
enforcement better funded, better engaged, better equipped to 
deploy this tool and these resources, better trained. In my 
previous life, I was responsible for a county police force, and 
I am confident that they do not have as much in the way of 
resources as they would need. And we were a county that was 
bisected by I-95. And on a regular basis, we had homeless and 
runaway kids. We had victims of domestic violence and I am 
certain of trafficking as well and yet could have done much 
more with more resources. We had one officer who did what you 
are talking about, went into chat rooms, tried to gather 
evidence, tried to help pursue and prosecute child 
prostitution, child pornography cases, a very dedicated, very 
loyal, very skilled officer. There are a few more resources 
today, but still far below what it should be.
    So I just have three questions, if I might. First, I am 
interested in how we can expand Thorn's model globally because 
I think you have made a significant impact so far. But if you 
look at the level of resources and training and access in U.S. 
law enforcement--as we all know, in the developing world, law 
enforcement, courts, transparency are significantly less 
resourced.
    So I would be interested in hearing how you think further 
investment by the United States Government in the End Modern 
Slavery Initiative might inspire engagement from our private 
sector. And I think it is exciting, the digital partners and 
the information technology partners, Susan and others, that you 
have brought to the table here. How might more investment in 
our appropriations leverage significant increased resources 
from the private sector?
    And then second, what are the limits to Spotlight 
internationally? What are the challenges you face in trying to 
really scale this up? But in countries where mobile technology 
is now widely available but where the transparency, reliability 
of the law enforcement system is significantly below what we 
would hope and expect.
    And then on a personal enthusiasm, a whole group of us 
worked together last year, Senators Flake and Menendez and 
Portman and Merkley, to pass the End Wildlife Trafficking Act. 
Wildlife trafficking is often viewed separately from human 
trafficking, but it is really not. And the criminal networks 
that benefit from wildlife trafficking, from killing and then 
selling parts, whether it is rhino horn or elephant tusk or 
pangolins--there are many others--are often the exactly the 
same criminal networks that are involved in trafficking people. 
And so how could we reinforce those two efforts which at times 
engage completely separate NGOs but really with the same goal, 
which is to end grotesque criminal activity that destroys and 
denigrates wildlife and whole communities and enslaves people?
    Ashton, to the first questions about how we might invest 
more and extend the reach.
    Mr. Kutcher. Sure. So we have two tools that I talked about 
today that are built and several others that are built and 
already deployed. As I mentioned, the heavy lifting, to a 
certain extent, is done.
    The key to the ongoing success of the tools is continuing 
to iterate on those tools and make them better over time. 
Senator Rubio mentioned BackPage. They shut down one section of 
their site and another section pops up. It is incumbent upon us 
having a malleable tool that can effectively work in all 
markets.
    But now that the database is built and the algorithm is 
built, relative to the contextual understanding of this 
content, our expansion internationally is relatively simple 
insomuch as we just need to find the environments that are 
being utilized for trafficking in those spaces and put them 
into our engine.
    Now the trick, which you alluded to, relative to the limits 
on that is there are some countries where this platform 
probably will not work. But it is incumbent upon us to build 
the next tool that will work there. You know, a lot of this 
trafficking and the exchange--the advertisement of sex slavery 
happens online. In some sense there is a benefit to that--
right--because in some ways it can be tracked, but building the 
tool relative to that specific market is not trivial.
    We are currently working with international partners. 
Canada is using our Spotlight tool. We are talking to the UK 
about using our Spotlight tool. We think it will be very 
effective in those markets. And our Solace Dark Web tool is 
being used in international spaces I will just say by several 
people and has proven to be very effective because the same 
Dark Web tool, TOR, which was created by the Naval Research 
Lab, is the same tool that is used internationally. So really 
just training our database to have an understanding of variable 
languages and things like that is fully doable.
    The limits? The real limit is the fact that we are only 
sitting at the identification barrier. Right? That is the 
limit. We can identify these people. I can identify all the 
people in the world. Right? But if we do not have the right 
resources on the inbound side and on the outbound side, it is 
just going to be a cycle. I think having a holistic 
understanding of the issue and approaching it from that 
perspective is essential to actually solving the problem.
    And relative to the wildlife piece, definitely on the Dark 
Web, our tool could be repurposed for specifically that. If 
somebody was so interested and passionate about that issue in 
the same way as I am passionate about solving sex trafficking, 
our tool could essentially be repurposed for something like 
that if need be.
    Senator Coons. That is an intriguing conversation I would 
love to follow up on.
    Ms. Massimino?
    Ms. Massimino. So I think the big picture issue here is 
around the risk/reward equation. You know, how do you keep 
people from going into the business of exploiting others 
through slavery? And right now, this is, as I said, a very low 
risk enterprise for the bad guys and high reward. So how to 
flip that? You have to increase the risk. That includes through 
law enforcement, through reputational and other damage to 
companies that do not do a good job of getting rid of slavery 
in their supply chain, and decrease the reward. So we have to 
tackle both sides of that.
    And as you keep hearing, some of the pieces of this problem 
really can be solved or significantly advanced through 
increased resources. So on the close-to-home kind of 
perspective, in the TVPRA reauthorization, for example, it 
would be really good to have designated human trafficking 
prosecutors. You know, there were only 297 of these 
prosecutions last year. If there were a provision that 
authorized human trafficking prosecutors in key U.S. attorneys' 
offices, I think that number would go up, and they could be 
responsible, kind of the hub, the point person for cultivating 
the relationships with all the different agencies that deal 
with this. We have seen jurisdictions with that type of 
collaboration increase their cases filed by 119 percent and 
defendants charged up by 86 percent. So some of this really is 
a resource question.
    You know, I mentioned the federal acquisition regulations, 
again another, like the Tariff Act, potentially 
transformational change in the way we do business--we, the 
United States, do business. I think if we were to fully 
implement those regulations--we need to authorize human 
trafficking compliance advisors in the counsels' offices of all 
these agencies, DOD, Labor, GSA, all of these places, who would 
work with the contracting officers and make sure that this is 
really being taken seriously. So there is a lot of potential 
here right now that is not being fully implemented, and with 
congressional oversight and attention on all of those--you all 
started a lot of that. Now to follow it through making sure it 
is fully implemented, I think those could be transformational.
    Senator Coons. Ms. Massimino and Mr. Kutcher, to you and 
your organizations and everybody who supports them and 
volunteers with them, I will just close by saying sexual 
slavery, human trafficking is some of the darkest activity that 
happens in the world. It thrives in dark places. It feeds on 
dark aspects of human nature. And I am really grateful for your 
work and, Mr. Chairman, for your leadership in shining light on 
this problem and on bringing to all of us not just hope but 
confidence that we can solve this, we can address this by 
appealing to the light within all of us and by coming together 
in a way that actually brings light to this darkest of 
subjects. Thank you for your work.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much for your leadership on 
this issue and so many others.
    I know that we have got a meeting after this to build on 
this and look at some of the tools in private that are being 
utilized. But I want to thank you both for outstanding 
testimony, for committing your lives to this issue, for being 
examples and bringing notoriety, bringing awareness, if you 
will, to this issue that plagues us all.
    There will be some follow-up questions. I know you have got 
a couple of day jobs and you do too, but there may be some 
follow-up questions afterwards. And we will try to keep those 
to a minimum, knowing that you have got other things that you 
do in life.
    But this has been an outstanding hearing. We apologize 
for--there is a lot happening up here on the Hill, as you know 
and has been reported, and it is taking people in a lot of 
different directions right now. But this has been a very 
impactful hearing, and we look forward to building upon it.
    One of the things that I do wish we could have touched more 
on is--I know you alluded to this, Ashton, but the sexual piece 
and the day labor piece--there are lot of differences that 
exist too and just some of the cultures that we deal with in 
other parts of the world and the collection of passports. I 
know when we visit countries now, it is one of the first things 
that we bring up. I am heading to that part of the world this 
weekend, but there are cultural aspects that are barriers. And 
people again unwittingly think they are going to a country for 
a particular job for a period of time and end up being 
entrapped there. And so there may be some questions in that 
regard too.
    But, again, the lives that you are leading and the example 
that you are setting for us, your willingness to come here and 
go right back to other work is deeply appreciated. I do not 
know if either one of you--this is a rather informal hearing--
wish to say anything in closing, but you are welcome to if you 
wish.
    Mr. Kutcher. I would just like to say thank you. As I 
mentioned before, this is one of the greatest honors of my 
life. And I know the work that you all do is rife with conflict 
and headlines that dominate your time and pull you in 
directions that oftentimes you do not even want to go. But if 
we really care about ending slavery, if we really care about 
doing the right thing here, we will realize that there will be 
negative repercussions of our actions.
    And I think the biggest thing that I got out of being here 
today--I got reminded of a story a friend of mine told me about 
a rabbi named Hillel who was asked to explain the Torah while 
standing on one leg. And he said love thy neighbor as thyself. 
Everything else is just commentary.
    The Chairman. Elisa?
    Ms. Massimino. Thank you. Well, I also want to say thank 
you so much to you in particular, Mr. Chairman, who have really 
have put this issue on the map in the United States Congress in 
a way that it has never been before and now using that 
awareness, that growing awareness that we all have to end 
modern slavery.
    I think it was Senator McCain who said this is not a pretty 
topic and a lot of people, particularly Americans, do not like 
to think about it, do not want to talk about it and would 
rather pretend that it does not exist and particularly do not 
want to see the ways in which we are all complicit in this 
problem. So you have made that harder for people, and I want to 
thank you and all the members of the committee who have done so 
much to make people uncomfortable about this issue. And that is 
where it starts. So thank you very much.
    The Chairman. Thank you both. You have been outstanding.
    We are going to walk across the hall I think and view how 
some of this that you have developed works so well. We thank 
you for that.
    The meeting is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
                              
                              
                             ----------                              


              Additional Material Submitted for the Record


               Responses of Elisa Massimino to Questions 
                 Submitted By Senator Edward J. Markey

Funding Restrictions in Tier 3 and Child Soldier-Using Countries
    Question. We have laws about restricting funding to countries that 
are either Tier 3 or that are known to recruit or use child soldiers. 
However, there are serious questions about the effectiveness of these 
laws, given that provisions through which the President can waive such 
restrictions. During the Obama administration such waivers were given 
to multiple countries known to use or recruit child soldiers including 
Burma, the Democratic Republic of Congo, Iraq, Nigeria, Rwanda, 
Somalia, South Sudan, and Yemen. From your perspective how do such 
waivers effect the will of governments to enforce laws against 
Trafficking in Persons?

    Answer. Routinely waiving these restrictions undermines the ability 
of the United States to pressure governments into prioritizing the 
fight against human trafficking and child exploitation. Much like 
questions about the objectivity of the TIP report rankings, overuse of 
the national interest waiver weakens American credibility in demanding 
action.
    When our government raises the ranking of a country from Tier 3, 
unjustifiably and without evidence of significant efforts to eradicate 
modern slavery, it renders prohibitions virtually meaningless, not only 
in that country, but across the globe. Failing to follow through on 
restrictions against countries that are ranked Tier 3 or that use child 
soldiers sets a stage for all countries to disregard U.S. prohibitions 
and sanctions in favor of what is easier--continuation of profitable 
and exploitative practices.
    If the United States is to be successful in the fight against 
modern slavery and the exploitation of children, it must be credible 
and consistent. But that is not happening. For example, approximately 
17,000 children have been recruited to fight in South Sudan since the 
conflict there began in 2013. However, our government has withheld only 
about four percent of all taxpayer-funded military aid to countries 
like South Sudan during that time. Waiving these restrictions leaves 
vulnerable populations open to exploitation and undermines the U.S. 
government's power to promote better anti-trafficking policies in 
countries where there is forced labor and where children are forced to 
take up arms.

    Question. A year ago, there were only 23 countries on Tier 3. Now 
there are 27. How can we encourage states to move out of Tier 3?

    Answer. Encouraging states to take the steps that would move them 
out of Tier 3 will require collaboration and strong leadership from the 
United States.
    Effectively implementing programs and providing grants, such as the 
recently passed End Modern Slavery Initiative, are key to encouraging 
this movement. Programs that leverage funding from other governments to 
invest alongside the United States in anti-trafficking programs will 
help target specific geographic regions and gain buy-in from foreign 
governments. To promote better policies, programs like this one take a 
multi-stakeholder approach involving civil society organizations, 
governments and the private sector all working together to identify 
victims, prevent future enslavement, and increase law enforcement 
efforts.
    In addition to promoting American leadership and funding to 
encourage states to raise the issue of trafficking, we should leverage 
bilateral agreements to increase information sharing about best 
practices and resources to combat trafficking. The United States should 
use its diplomatic relationships as the basis for raising awareness of 
the problem of modern slavery, and work with diplomatic partners to 
address the specific trafficking concerns in their regions. Raising 
modern slavery as a key issue in these important conversations--
including in trade negotiations--will encourage states to adopt more 
stringent laws and policies.
Fishing Industry and TPP
    Question. The Trans-Pacific Partnership agreement contained a 
provision that required member states to provide fishing subsidies to 
reduce overfishing and to agree to cooperative measures designed to 
reduce IUU fishing. The U.S. International Trade Commission n, in its 
report on the expected effects of the TPP, predicted that ``the United 
States needs to help other TPP parties to build enforcement 
capacity.''\1\ With the demise of the TPP, what are other ways the US 
can influence the fishing industry to stop using what is essentially 
slave labor to obtain and process seafood?
---------------------------------------------------------------------------
    \1\ https://www.usitc.gov/publications/332/pub4607.pdf.

    Answer. The United States already has laws in place that could be 
leveraged to encourage better practices in the fishing industry, but we 
need to better enforce these to see their success. In February 2016, 
Congress amended Section 307 of the Tariff Act to eliminate the 
consumptive demand loophole, a broad exception that allowed goods made 
with forced labor to be imported if the demand in the United States 
exceeded domestic production capacity. Now, the Department of Homeland 
Security Customs and Border Protection (CBP) is tasked with 
investigating allegations of forced labor in the manufacture or 
production of goods imported into the United States.
    The United States imports over $1 billion worth of seafood from 
Thailand, so enforcing this law could have a significant impact on 
seafood industry labor practices. To establish accountability and 
ensure that the civil ban is being fully enforced, Congress should 
insist that CBP report on their enforcement activities. CBP should 
report not only on the merchandise denied entry, but on the number of 
petitions filed which allege forced labor and the result of those 
petitions. This report is required by statute; the first report was due 
in August 2016, but CBP failed to submit it.

    Question. With the collapse of TPP, many observers predict that 
China could have a greater opportunity to influence the rules of 
international trade in Asia, including on issues like labor standards. 
How do you think this would affect efforts to combat modern slavery in 
the seafood industry?
    Answer. Enforcing the Tariff Act will help ensure that seafood 
caught with slave labor does not find its way into American markets. 
But unfortunately, no other country has a similar law. The U.S. 
government should leverage its bilateral relationships to encourage 
other countries to follow its lead, so that if a shipment of goods is 
turned away from the U.S. border because it was made with forced labor, 
there won't be another market easily available. If all countries banned 
the import of goods made with forced labor, this collaborative approach 
would encourage countries to strengthen labor standards. A cooperative 
global response could have the negative economic effects needed to 
counter any influence that China stands to gain.
      Statement of Principles on America's Commitment to Refugees 
              Submitted for the Record by Elisa Massimino
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
